<html>
<title> - DEMOCRACY AND HUMAN RIGHTS ABUSES IN RUSSIA: NO END IN SIGHT</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                          DEMOCRACY AND HUMAN
                       RIGHTS ABUSES IN RUSSIA:
                            NO END IN SIGHT

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-1-1]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                       Available via www.csce.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-602 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          











            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS




               HOUSE                               SENATE

                                                   

CHRISTOPHER H. SMITH, New Jersey,     ROGER F. WICKER, Mississippi,
Co-Chairman                           Chairman
ALCEE L. HASTINGS, Florida            BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama           JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas             CORY GARDNER, Colorado
STEVE COHEN, Tennessee                MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina        JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois              THOM TILLIS, North Carolina
SHIELA JACKSON LEE, Texas             TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                 SHELDON WHITEHOUSE, Rhode Island
                          

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]







                          DEMOCRACY AND HUMAN
                        RIGHTS ABUSES IN RUSSIA:
                            NO END IN SIGHT

                              ----------                               

                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Thom Tillis, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     6
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    14
Hon. Sheila Jackson Lee, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    19
Hon. John Boozman, Commissioner, Commission on Security and 
  Cooperation in Europe
Hon. Mike Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe
Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe

                               WITNESSES

Vladimir Kara-Murza, Vice-Chairman, Open Russia..................     4
Rachel Denber, Deputy Director of the Europe and Central Asia 
  Division, Human Rights Watch...................................     9
Dr. Daniel Calingaert, Executive Vice President, Freedom House...    12

                                 [iii]
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                               APPENDICES

Prepared statement of Hon. Roger F. Wicker.......................    30
Prepared statement of Hon. Benjamin L. Cardin....................    31
Prepared statement of Hon. Sheila Jackson Lee....................    32
Prepared statement of Hon. Michael Burgess.......................    33
Prepared statement of Vladimir Kara-Murza........................    34
Prepared statement of Dr. Daniel Calingaert......................    36

                        MATERIAL FOR THE RECORD

List of Individuals Recognized as Political Prisoners by the 
  Memorial Human Rights Center...................................    42
 
                          DEMOCRACY AND HUMAN
                        RIGHTS ABUSES IN RUSSIA:
                            NO END IN SIGHT

                              ----------                              


                             April 26, 2017

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:33 a.m. in Room 124, Dirksen 
Senate Office Building, Washington, DC, Hon. Roger F. Wicker, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Roger F. Wicker, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Thom Tillis, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Steve 
Cohen, Commissioner, Commission on Security and Cooperation in 
Europe; Hon. Sheila Jackson Lee, Commissioner, Commission on 
Security and Cooperation in Europe; Hon. John Boozman, 
Commissioner, Commission on Security and Cooperation in Europe; 
Hon. Michael Burgess, Commissioner, Commission on Security and 
Cooperation in Europe; and Hon. Randy Hultgren, Commissioner, 
Commission on Security and Cooperation in Europe.
    Witnesses present: Vladimir Kara-Murza, Vice-Chairman, Open 
Russia; Rachel Denber, Deputy Director of the Europe and 
Central Asia Division, Human Rights Watch; and Dr. Daniel 
Calingaert, Executive Vice President, Freedom House.

    HON. ROGER WICKER, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. The hearing will come to order.
    Good morning, everyone. The 115th Congress has already, in 
its very first months, devoted considerable attention to 
threats posed by Russia to the states of the former USSR, to 
all of Europe and even to the United States through Russia's 
interference in our very own elections--a matter that remains 
under investigation by multiple U.S. authorities. What we have 
not done yet--and this goes well back into the 114th Congress--
is take a long, hard look at the continuing violations of 
democratic norms and human rights within Russia itself.
    So I'm happy today that my first hearing, as chairman of 
the U.S. Helsinki Commission, can focus on this very important 
and timely topic. I'm especially glad that we have such an 
expert panel of witnesses to testify today on the impact these 
abuses have, not only on the people of the Russian Federation 
but on the larger international community, by effectively 
silencing the voices of the opposition within Russia and giving 
Mr. Putin and his regime a free hand to act with impunity 
abroad.
    We will begin with someone who is no stranger to me, to the 
Helsinki Commission, nor to the halls of Congress, thanks to 
his tireless work promoting democracy in Russia. Despite the 
Putin regime's efforts to silence him, Mr. Vladimir Kara-Murza 
is still with us today, and I can't think of anybody in a 
better position to tell us about the intense--and too often 
lethal--pressure being applied to brave Russians like him who 
engage in opposition politics.
    We're also very fortunate to have representatives of two of 
the top independent organizations promoting human rights and 
freedom of expression across the globe, Human Rights Watch and 
Freedom House. Rachel Denber will be sharing with us highlights 
of her years of work following human rights issues in Russia 
for Human Rights Watch, including the shocking stories of 
murder and repression in Chechnya that have recently come to 
light. Human Rights Watch has been the only international 
organization actively following this case. And Daniel 
Calingaert is the executive vice president of Freedom House, an 
organization that needs no introduction here.
    Freedom House's annual publications--Freedom in the World, 
Freedom of the Press and Freedom of the Net--have been 
invaluable in helping Congress and opponents of freedom of 
expression and democracy all of over the world track both 
progress and backsliding on these fundamental freedoms around 
the globe. In the case of Russia, the trends have not been 
positive, and we look forward to hearing much more about that.
    Now, a word about the portraits of the people that you will 
notice in the room here to my right--and which you'll see in 
the room today--these represent several well-known political 
prisoners currently behind bars in Russia. We will hear about 
many of them during this morning's hearing. The people 
portrayed here represent only a fraction of the dozens of 
political prisoners held in Russia. Indeed, some groups 
following this issue, like the NGO Memorial, estimate the 
number is in the hundreds. We wanted to be able to help our 
audience see at least a few of the faces behind some of the 
names you will hear today, and we will, of course, have much 
more information on political prisoners in the material that 
will be submitted for the record.
    This hearing is intended to accomplish two things. First of 
all, we want to draw much needed attention to the ongoing 
serious abuses of human rights in Russia to remind all members 
of Congress and the American people that the situation in 
Russia is grave and could continue to deteriorate. Secondly, 
with our witnesses' assistance, we would like to evaluate how 
our current approach to human rights abuses in Russia is 
working and to consider what we can do to get things back on a 
positive trajectory in Russia, for the Russian people 
ultimately. A Russia that fully respects all of its citizens' 
human rights, that allows for full freedom of expression and 
religion and for free and fair elections, will be a place where 
all Russians can prosper. Those improvements would also make 
Russia a much better neighbor and would go a long way toward 
promoting peace and security in the entire Eurasian region. So 
we have a lot to discuss.
    And, with that, it's my pleasure to yield to my good friend 
Senator Cardin for his opening statement. Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, Senator Wicker, thank you very much for 
convening this extremely important hearing on democracy and 
human rights in Russia.
    Democracy and human rights and respect for human rights is 
very much in the hearts and minds of Russians, but not in its 
leader, Mr. Putin, and it's important that we have this hearing 
to underscore our commitment to the Russian people and their 
quest to be respected for human rights.
    I must tell you, I am extremely impressed by the spirit of 
the people in Russia. Under extremely dangerous circumstances, 
they are taking to the streets to protest against Mr. Putin's 
corruption. We saw the truck drivers' protest against these 
corrupt taxes that are being collected from them. The Russian 
people are showing tremendous courage under extremely dangerous 
circumstances.
    So, Mr. Chairman, I thank you very much for this hearing, 
and particularly for the posters and for the faces, because 
there are millions of people being persecuted in Russia today. 
But as we found, without personalizing it, it's difficult to 
get the attention that the international community should be 
paying to what is happening today in Russia. You and I and 
others were able to do that by the Magnitsky Global 
Accountability Act, by focusing on the tragedy that occurred to 
Sergei Magnitsky, and it not only caused the United States to 
act, but the international community also responded when they 
saw the outrageous way that one individual was treated by Mr. 
Putin in Russia.
    We're at the Helsinki Commission, and it's interesting that 
if you look at the Helsinki Final Act, in Moscow, the OSCE 
participating states explicitly acknowledged that, and I quote, 
``Issues relating to human rights, fundamental freedoms, 
democracy and the rule of law are of international concern, and 
the respect for these rights and freedoms constitutes one of 
the foundations of the international order.'' That was the 
declaration that was issued in Moscow under the OSCE. So we 
have a direct interest and responsibility, every member state, 
to challenge when other states are not doing what is required 
under the Helsinki Final Act, and Russia clearly is violating 
those commitments.
    I appreciate all three witnesses that are here, but I want 
to particularly acknowledge Vladimir Kara-Murza. And I thank 
you very much for your presence, and it's nice to see you here 
with your wife.
    As Chairman Wicker pointed out, by the posters that we are 
displaying here, that by showing the courage of individuals we 
can get more action. And Mr. Kara-Murza, you have shown 
tremendous courage in standing up for what is right for the 
Russian people at the risk of your own life, not once but on 
other occasions, and it's good to see you healthier today than 
the last time I saw you.
    Mr. Chairman, I'm going to read what our witness said when 
he testified before Congress--now, it's been almost two years 
ago. This is what he said two years ago:
        ``Our friends in the West often ask how they can be 
        helpful to the cause of human rights and democracy in 
        Russia, and the answer is very simple: Please stay true 
        to your values. We are not asking for your support. It 
        is our task to fight for democracy and the rule of law 
        in our country. The only thing we ask from Western 
        leaders is that they stop supporting Mr. Putin by 
        treating him as a respectable and worthy partner and by 
        allowing Mr. Putin's cronies to use Western countries 
        as havens for their looted wealth.''

    That was good advice two years ago, and that advice remains 
the same today. Tragically, the numbers are increasing of those 
who are at risk. Just a few days ago, a St. Petersburg 
journalist succumbed to his injuries after being beaten into a 
coma on March the 9th. His case is a reminder that many attacks 
have resulted not only in loss of life, but in some cases have 
left people maimed and disabled for life.
    Mr. Chairman, I also welcome the opportunity to focus on 
the political prisoners and others detained in violation of 
Principle VII of the Helsinki Final Act: the right of people to 
know and act upon their human rights. The cases of these seven 
detainees have been well documented by Memorial, the Russian 
civil society organization established to document the crimes 
of Soviet repression.
    If I may, Mr. Chairman, I would like to include in the 
record Memorial's list of political prisoners, which was 
submitted at the OSCE Human Dimension Implementation Meeting in 
Warsaw in September.
    Mr. Wicker. Without objection.
    Mr. Cardin. Thank you, Mr. Chairman. I regret that 
Secretary Tillerson did not meet with independent civil society 
groups like Memorial when he visited Moscow--foregoing an 
opportunity to communicate U.S. support for an open and 
democratic Russia.
    I look forward to hearing from our witnesses, and I thank 
them very much for being here.
    Mr. Wicker. Thank you, Senator Cardin.
    And we begin our testimony by recognizing Mr. Kara-Murza.

        VLADIMIR KARA-MURZA, VICE CHAIRMAN, OPEN RUSSIA

    Mr. Kara-Murza. Thank you very much, Mr. Chairman.
    Chairman Wicker, Ranking Member Cardin, esteemed members of 
the Commission, thank you very much for holding this important 
and timely hearing and for the opportunity to testify before 
you.
    This coming Saturday, April 29th, pro-democracy activists 
across Russia will take part in a nationwide campaign organized 
by the Open Russia Movement with a single message: enough. They 
will hold rallies, and send petitions to the Kremlin calling on 
Vladimir Putin to leave the presidency when his current term--
officially the third, in reality the fourth--expires next 
spring.
    Mr. Putin has been in power for 17 years. There is now an 
entire generation of Russians who have no memory of any other 
government. This longevity has been the result of a deliberate 
suppression of the opposition, independent media and civil 
society and of continuous violations of the rights and freedoms 
guaranteed to Russian citizens by our own constitution and by 
our country's commitments under the Organization for Security 
and Cooperation in Europe. Chief among these is the right to 
freely elect one's own government. After March of 2000, not a 
single national election in Russia, presidential or 
parliamentary, was assessed by OSCE monitors as free and fair.
    Unequal media access, the removal of opposition candidates 
from the ballot and outright fraud have become the unfortunate 
norm in Russian elections. The result has been a parliament 
devoid of real opposition, not a place for discussion in the 
words of its own former speaker. Major media outlets have also 
long ceased to be places for discussion. Having taken control 
of all national television networks, the main source of news 
for Russian citizens, the Kremlin turned them into propaganda 
outlets that offer laudatory coverage of the authorities and 
portray Mr. Putin's political opponents as a fifth column that 
works at the behest of foreign governments. Many of these 
opponents are in prison. According to Memorial, Russia's most 
respected human rights organization, there are now 115 
political prisoners in Russia, a number comparable with the 
late Soviet period.
    And I'd like to thank the staff members of the Helsinki 
Commission for putting up these portraits of some of the ones 
who are political prisoners in Vladimir Putin's Russia today. 
They include opposition activists and their family members, 
such as Sergei Udaltsov, Oleg Navalny and Darya Polyudova, 
citizens jailed for taking part in peaceful antigovernment 
demonstrations, including construction engineer Ivan 
Nepomnyashchikh and history lecturer Dmitry Buchenkov. The 
latter was not even present at the rally for which he was 
charged. But a little Kafka never stopped the Russian judicial 
system. They include Ukrainians arrested after the annexation 
of Crimea, such as the filmmaker Oleg Sentsov. And I believe 
there will be a special briefing here at the Helsinki 
Commission this week focusing on his case. They include Aleksei 
Pichugin, the remaining hostage of the Yukos case that saw the 
head of Russia's largest oil company, Mikhail Khodorkovsky, 
imprisoned for more than a decade for having the tenacity to 
support opposition parties and expose government corruption.
    Sometimes political opponents are dealt with without a 
recourse to formal procedures. In October of 2015 at a hearing 
of this Commission, I recalled the near-fatal poisoning I had 
experienced in Moscow earlier that year. Today, I could take 
that statement and repeat it word for word because I have now 
experienced it for the second time, also in Moscow, this past 
February--an identical picture, poisoning by an undefined 
substance leading to multiple organ failure and a coma. Doctors 
estimated my chance to survive at 5 percent, so I'm very 
fortunate to be sitting here today, certainly very grateful. 
Many of our colleagues have not been as fortunate. Several 
opposition activists, independent journalists, anticorruption 
campaigners and whistleblowers have lost their lives in the 
last 17 years.
    Two years ago, in the most brazen political assassination 
in modern Russia, opposition leader and former Deputy Prime 
Minister Boris Nemtsov was murdered on a bridge in front of the 
Kremlin. The official investigation into his assassination is 
stalling. While the alleged perpetrators, all of them, linked 
to the Kremlin-
appointed leader of Chechnya, Ramzan Kadyrov, are currently on 
trial, the authorities have not pursued those who had ordered 
and organized the killing and have refused to even question 
potential persons of interest, including Mr. Kadyrov and the 
commander of the Russian National Guard, General Viktor 
Zolotov.
    Under the statutes of the OSCE and contrary to repeated 
claims by Kremlin officials, human rights abuses in member 
states cannot be dismissed as an internal affair and are, I 
quote, ``matters of direct and legitimate concern to all 
participating states,'' end of quote. And Senator Cardin has 
already referenced this fundamental principle of the OSCE.
    It is important that our OSCE partners speak openly and 
honestly about what is happening in Russia. It is also 
important, since human rights are a matter of international 
concern, that there be international accountability for those 
who violate them. The United States does have a mechanism for 
such accountability in the Magnitsky Act, of which the ranking 
member is the lead author and the chairman is one of the 
original cosponsors, the act that individually targets human 
rights abusers. And it is very important that this law 
continues to be implemented to its full extent.
    The main responsibility for ensuring respect for human 
rights, the rule of law and democratic principles in Russia 
lies, of course, with Russian citizens themselves. And I would 
respectfully disagree with the subtitle of this hearing, that 
there is no end in sight to the abuses. Increasingly, the young 
generation in Russia, the very generation that grew up under 
Vladimir Putin, is demanding respect and accountability from 
those in power.
    Last month, protests against government corruption swept 
across Russia with tens of thousands of people, mostly young 
people, taking to the streets, despite arrests and 
intimidation. This movement will continue and these growing 
demands for accountability are the best guarantee that Russia 
will one day become a country where citizens can exercise the 
rights and freedoms to which they are entitled.
    I thank you very much, once again, for holding this hearing 
and I look forward to any questions you may have during the 
question-and-answer round. Thank you.
    Mr. Wicker. Thank you, Mr. Kara-Murza.
    And I'm going to defer my questioning until the end. But 
let me just say on behalf of the Commission that you look 
great, particularly considering what you've gone through. And 
we are just thrilled that you are up and about and healthy and 
able to testify today.
    At this point, I'm going to yield my time to Mr. Tillis for 
a five-minute round, and then Mr. Cardin, and then we'll go in 
turn after that. So thank you much.
    Senator Tillis.

  HON. THOM TILLIS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Tillis. Thank you. And thank you all for being here.
    I was at a Banking Committee hearing about a month ago. And 
one of the subjects was Russian sanctions. And there was a 
question asked that was, ``How rich is Vladimir Putin?'' And 
everybody was coming up with all kinds of calculations. My 
response to that, ``he's as rich as he wants to be because he 
will take whatever he wants and he will use every device in his 
power in what seems to be an unbridled fashion.'' So I wanted 
to give you my predisposition on the leadership over there. 
It's not a positive one.
    I also think it's important for us to make sure that if 
someone from Russia happens to watch this on video, this is not 
about the Russian people; this is for the Russian people and 
the abuses that I think are well-documented. In fact, some of 
the attempts on your life, some of the murders look like 
they're right out of a Tom Clancy novel or something. It's 
almost like you'd think it was fictional, but it's actually 
happening. And I don't think, even among the American people, 
when you see a Time magazine that has Vladimir Putin on it, 
``The Most Powerful Man Alive,'' you could almost conjure that 
up as actually respectable leaders who have had that title in 
the past.
    So has the pace of the acts, like the acts against you, the 
murders, do you think that they have escalated or are they more 
or less running at the same rate? Where are we now in terms of 
Russia and actors in Russia feeling any pressure from our 
knowledge that these acts are going on? And I'm happy to have 
anyone answer that question.
    Mr. Kara-Murza. Thank you very much, Senator Tillis. And I 
think you're certainly right to say that Mr. Putin is as rich 
as he can be. And it has been said about the people who are 
currently in power in Russia that this group of people doesn't 
just rule Russia, it also owns it. And I think that's very true 
about the nature of the regime we have, the kleptocratic, 
oligarchic regime in many ways. And when the Panama Papers came 
out about a year ago, that was, of course, just the tiniest tip 
of the iceberg, that showed as one of the revelations that 
there were $2 billion worth of assets owned by Mr. Putin's 
close friend, the cellist Sergei Roldugin. And this presumably 
is the way that this money is kept. I mean, presumably it's not 
in Mr. Putin's own name, he's more clever than that. It's kind 
of stashed away in the names of other people.
    And we used to say--we said in Moscow last year that we all 
thought that Paul McCartney was the world's richest musician. 
Now we know it's Sergei Roldugin who is nobody you probably 
ever heard of, but he's the one who has all these assets.
    In terms of the pace of the repression, the crackdown, he 
certainly began gradually when he came to power 17 years ago. 
In fact, I think it could be said that he borrowed Benito 
Mussolini's tactic when it came to dismantling the democratic 
institutions in Russia. And Mussolini's advice was to--he said 
it once, ``pluck the chicken feather by feather to lessen the 
squawking,'' so you do it gradually, you do it one by one. So 
he went after independent media and he went after the political 
opposition. He went after the institutions, like Parliament, 
step by step by step. And, of course, the pace of the crackdown 
certainly has massively accelerated in the past five years 
since the big protests that began in 2011, 2012.
    And the number of political prisoners we have in Russia 
today, 115 according to Memorial--actually I think it will be 
updated today or tomorrow because there was one more person 
sentenced yesterday in a political case, a well-known 
nationalist, Dmitry Dyomushkin is his name--this number is 
really well comparable to what we had in the Andropov-Brezhnev 
era. When Andrei Sakharov wrote his Nobel Prize lecture in 
1975, he listed 126 political prisoners in the Soviet Union--
we're now up to 115. That wasn't an exhaustive list back then, 
probably this one isn't either. And, of course, Russia is much 
smaller than the Soviet Union was, so you can compare the 
scale.
    And in terms of the mortality rate among people who have 
crossed the Kremlin's path in one way or another, it certainly 
has been abnormally high in defying any kind of statistical 
model. And as I mentioned in my prepared testimony, the 
assassination of Boris Nemtsov, the leader of the Russian 
opposition, two years ago was the most brazen, the most high-
profile political assassination in Russia in decades. And it 
basically continues to be surrounded by impunity.
    Mr. Tillis. In my remaining time, I did want to get one 
other question in. I have a Judiciary Confirmation hearing that 
I have to go to. I would like to stay for the entire hearing.
    But how would you gauge--the United States is one nation 
that really needs to stand against some of the activities that 
we're seeing in Russia. How would you rate the international 
community in general in terms of their focus and their message 
and their level of expressed concern for what we see going on 
in Russia?
    Mr. Kara-Murza. Well, the U.S. has certainly led in this 
because you didn't limit yourselves to words, you went into 
action. And four-and-a-half years ago, this Congress passed the 
Sergei Magnitsky Rule of Law Accountability Act which for the 
first time--this was really a groundbreaking principle--for the 
first time it introduced sanctions not against a country, not 
even against a government, per se, but against specific 
individuals responsible for human rights abuse. And this is 
absolutely fundamental, because going back to what we were just 
talking about, the nature of this regime that we have now is 
that these people abuse the rights of their own citizens, but 
they themselves want to use all the privileges, including 
financial privileges, that the West has to offer for themselves 
and for their families. And this double standard has to end and 
the U.S. has led in ending this double standard.
    And I think it's very important that the Magnitsky law 
continues to be implemented in this country to the full extent. 
And there are now other countries that are following your 
example. Estonia became the first European Union country to 
pass a similar measure. The U.K. is now in the process of doing 
so. Canada is in the process of doing so. And so I think this 
is the most important benchmark and it's important that it 
continues to be implemented.
    Mr. Tillis. Thank you, Mr. Chair.
    Mr. Wicker. And thank you, Senator Tillis.
    We departed from regular order to accommodate the senator, 
who is on his way to another very important hearing. But at 
this point we will resume with the testimony of our two other 
distinguished panelists, the first being Rachel Denber, deputy 
director of the Europe and Central Asia Division of Human 
Rights Watch. She specializes in countries of the former Soviet 
Union. Previously, Ms. Denber directed Human Rights Watch's 
Moscow office and did field research and advocacy in Russia, 
Georgia, Armenia, Azerbaijan, Kazakhstan, Uzbekistan, Estonia, 
Ukraine, Kyrgyzstan and Tajikistan.
    So, Ms. Denber, we are delighted to have you here and we 
welcome your testimony.

 RACHEL DENBER, DEPUTY DIRECTOR OF THE EUROPE AND CENTRAL ASIA 
                  DIVISION, HUMAN RIGHTS WATCH

    Ms. Denber. Thank you so much, Chairman Wicker.
    Thank you, members of the Commission, for inviting me here 
today.
    And I just want to personally acknowledge Vladimir Kara-
Murza's courage. It's an honor to be testifying together with 
you and also together with our colleague from Freedom House.
    I have been monitoring human rights in Russia, in the 
former Soviet Union, for 25 years now. And I can say that I 
want to agree with what Vladimir said, that Russia is today 
more repressive than it has ever been in the post-Soviet era. I 
think that Vladimir and also you, Chairman Wicker, have talked 
about some of the tools that the government is using to try 
to--I want to emphasize ``try to''--silence independent 
critics. It's using a wide range of tools through tightening 
control over free expression, over free assembly, over free 
association, over NGOs.
    And I want to add two other things about this crackdown on 
civil society that has grown increasingly vicious, and that's 
the way that the Kremlin-controlled broadcasters have been 
portraying Western democracies as working to destabilize Russia 
and the rest of the world and how these Kremlin-controlled 
broadcasters have--and Kremlin-controlled media or Kremlin-
loyal media--have also been urging Russians to mobilize against 
this threat and have branded dissenting voices as paid agents 
of the West working against Russia. I think it's really 
important to understand how the government has tried to 
mobilize the public mood in a very poisonous way.
    I want to talk about two things, and one is something that 
Chairman Wicker referred to--what's happening in Chechnya 
today. And I think it's also very important and relevant in the 
context of what you mentioned, Ramzan Kadyrov and his 
association with Nemtsov's murder, and with Chechnya.
    As you know, there has been a campaign inside Chechnya to 
round up and beat, torture men who were believed to be gay in 
Chechnya. This is a campaign that has been very rightly 
condemned by the U.S. Government, and by members of this 
Commission and other members of Congress.
    You know, this campaign is targeting these men to try to 
get them to hand over the contacts of other men who are 
believed to be gay and to, again, mobilize society against 
them. When they are released, they are at great risk of 
persecution by their own families, of hate crimes, because 
Chechnya is a highly traditional society, and being gay in 
Chechnya is considered a stain on family honor.
    I think that as a result of the pressure that has been 
mobilized by the United States Government, by governments all 
over Europe and by international organizations, Putin 
eventually did discuss the allegations of these roundups with 
Ramzan Kadyrov, who owes his political career to Vladimir 
Putin. You know, of course, Kadyrov denied that these roundups 
were happening, that this torture was happening, but the facts 
are there. The facts are there. Human Rights Watch has done our 
own interviews. We've confirmed the roundups. We've confirmed 
the forced outings to families. And we've also confirmed the 
very visceral threats that Chechen officials have issued 
against the newspaper, Novaya Gazeta, that made these 
allegations public for the first time.
    The second thing I wanted to address was the broader issues 
of political prisoners in Russia. I'm very happy to see the 
posters and these faces. That's incredibly important to 
actually see these faces and realize that they're actual people 
with actual families. Human Rights Watch, we don't have our own 
comprehensive list of politically motivated arrests. We also 
follow and pay great attention and liaise with the Memorial 
Human Rights Center, which keeps this comprehensive list.
    I think it would be an overstatement to say that the 
Russian Government systematically arrests and imprisons 
dissidents, political-opposition activists and government 
critics. I think that the government for now doesn't need to 
engage in mass arrests. It has other tools in the toolbox, 
tools that induce self-censorship. People who they want to 
intimidate are people who are online, who are active on the 
Internet, or people who might participate in protests.
    Vladimir already set out the main groups of people who are 
targets of intimidation and who are targets of arrests. They 
include protesters, not only from four years ago, the Bolotnaya 
case, but also the people who marched last month against 
corruption. A second group is other people who are targeted 
with arbitrary cases of extremism; these include people who are 
imprisoned for sharing or for posting something on the Internet 
having to do with government--their criticism of Russia's 
actions in Syria, also having to do with religious insults. And 
I can give a couple of examples in question and answer.
    Probably the largest category of new cases of politically 
motivated arrests have to do with Ukraine, either Ukrainian 
citizens who have been arrested on a range of charges--and I 
especially want to point out Oleg Sentsov, as Vladimir had, and 
to point out also that the third anniversary of his arrest is 
coming up May 10th. I wish I could be here for tomorrow's 
briefing on that. So they're either Ukrainian citizens or they 
are people who have spoken out against Russia's actions in 
Ukraine, whether it's the young woman, Darya Polyudova, who did 
nothing more than make a harmless post on her VKontakte 
account, to a very small closed group, or others who criticize 
Russia's occupation of Crimea.
    There's even a librarian, Natalia Sharina, who's currently 
under house arrest because of suspicion that some of the books 
in the Ukrainian-language library in Moscow, where she is the 
librarian, that there were a couple of dozen books that the 
government has said are extremist materials. And also there's a 
large group of Crimean Tatars who have been arrested or who are 
facing criminal charges.
    And I would also say that there's a fifth group, and that's 
people who simply face political retribution by the regime. And 
that's either people like Oleg Navalny, the opposition leader 
Alexei Navalny,s brother--I'm very glad to see his photograph 
up here--and also people inside Chechnya who have criticized 
Ramzan Kadyrov, who are in jail now and facing completely false 
drug charges.
    I'm really glad that you asked what it is that the United 
States could be doing. I would put forth four recommendations.
    One is specifically about the anti-gay campaign in 
Chechnya. It's to stay strongly focused on this, to continue to 
bring pressure on the Kremlin to stop these purges and to 
insist that the Kremlin ensure that they never happen again. I 
think that the criticism that's been brought forward so far is 
the only reason why Putin raised this issue with Kadyrov in the 
first place.
    The second thing the United States can do is to actually 
understand that men from Chechnya who are gay or believed to be 
gay have absolutely nowhere to go, and they will be targeted. 
They will continue to be targeted, whether it's by the regime 
or by their families, and that the U.S. should do whatever it 
can to help these men find safe sanctuary, especially in the 
United States.
    The other two recommendations are quite general, and that's 
to continue full support for outlets like Radio Free Europe, 
Radio Liberty, Voice of America. These are incredibly important 
sources--important and high-quality sources of information in 
Russia and elsewhere in the former Soviet Union.
    And then, finally, I'm so glad you mentioned that when 
Secretary Tillerson went to Moscow, he did not meet with 
Memorial. We were quite surprised that Secretary Tillerson, 
during his trip to Moscow, met with no civil-society leaders. 
It's not that every single time a secretary of state travels to 
Russia that they must meet civil-
society leaders. But on his first trip, I would have expected 
Secretary Tillerson to meet with them.
    And I think we need to make sure that when high-level U.S. 
VIPs travel to Russia, they should meet with civil-society 
leaders--not only to show support, but also to listen to what 
they have to say, because their analysis of what's going on in 
Russia is incredibly important--and also to find ways to raise 
those issues in meetings that they have with Russian officials 
and to show that meeting with civil-society leaders is a normal 
thing to do in a strong democracy.
    I think that I will stop there. Thank you very much for 
inviting me to speak today.
    Mr. Wicker. Thank you very much, Ms. Denber.
    Dr. Daniel Calingaert is executive vice president at 
Freedom House. He oversees Freedom House's contributions to 
policy debate on democracy and human rights issues and outreach 
to the U.S. Congress, foreign governments, media, and Freedom 
House supporters. He previously supervised Freedom House's 
civil society and media programs worldwide.
    He has taught at Georgetown and Johns Hopkins University, 
also at the American University School of Public Affairs. And 
it's worth noting that he graduated with highest honors in 
international relations from Tufts University and earned both a 
Master's in Philosophy and a Doctor of Philosophy from Oxford 
University.
    Dr. Calingaert, we're delighted to have you with us.

 DR. DANIEL CALINGAERT, EXECUTIVE VICE PRESIDENT, FREEDOM HOUSE

    Dr. Calingaert. Thank you, Chairman Wicker.
    And thank you, honorable members of the Commission, for the 
opportunity to testify.
    I ask that my full written statement be submitted for the 
record.
    Mr. Wicker. Without objection.
    Dr. Calingaert. Thank you.
    Repression in Russia echoes across Eurasia and beyond. 
President Putin was the primary author of what we call the 
modern authoritarian's playbook. And it's a playbook that he 
developed starting in the early 2000s and refined over time. 
And this, in essence, is the facade of pluralism that really 
masks political control. Other dictators have picked up the 
playbook and used it.
    A key component of the playbook is suppressing civil 
society. We heard earlier about restrictive NGO laws, criticism 
of foreign support for local civil society. And these are 
methods that we've seen replicated not only in neighboring 
countries, but even as far afield as Ethiopia and Venezuela.
    In 2012, Russia passed its foreign-agent law. And we've 
seen similar legislation enacted in Kazakhstan. It was debated 
but ultimately rejected in Kyrgyzstan; and most recently there 
are reports that foreign-agent legislation is being drafted in 
Hungary, which I'd note used to be held up as an example of 
democratic transition and progress.
    The foreign-agent bill not only stifles civil society but 
fuels a poisonous narrative of civil society as paid foreign 
agents who are trying to impose alien agendas. And this is 
really a distraction. It's a way for President Putin and other 
dictators to shift attention from the real issue, which is 
their efforts to deny citizens' fundamental freedoms.
    The foreign-agent bills and other restrictions on civil 
society are echoed in Eurasia and other places. If you look at 
Russia's manipulation of the media, that is directly affecting 
countries in the neighborhood and further on. And when I say 
media manipulation, I'm talking about really a sophisticated 
form of influence that is designed to undermine trust in 
democratic institutions. And this is a combination of facts, 
distortions and outright fabrications designed to shape public 
opinion. It often relies on social media to amplify rumors, 
blatant falsehoods, and reach a significant audience. And in 
some cases the buzz on social media causes coverage in 
mainstream media, as we saw in the French elections with rumors 
about the candidate Emmanuel Macron.
    Russian television has extensive reach and influences 
public perceptions. According to a Gallup poll, residents in 
most of Eurasia find that the Russian media's coverage of the 
situation in Ukraine and Crimea is more reliable than Western 
media coverage. The large reach of Russian TV can shape public 
discourse in other countries. For instance, the whole debate in 
Kyrgyzstan on foreign funding for civil society was really 
driven by Russian TV.
    And even where the reach is limited, it can gain traction. 
To cite other examples, in Germany there was a false report of 
a 13-year-old Russian-German girl supposedly raped by migrants. 
Again, it was fueled by social media. And even in the U.S. 
elections last year, there are certain stories that sort of 
gained traction through, you know, dubious websites and social 
media accounts likely connected to Russia.
    Russia is seeking to undercut the ability of international 
organizations to protect human rights and democratic standards; 
for instance, impeding this election of a new OSCE 
representative on freedom of the media. This obstruction is 
part of a broader effort to revise the European order. A key 
component obviously is the Helsinki Final Act, which in essence 
was a grand bargain whereby the U.S. and Western Europe 
accepted existing borders, and the Soviet Union and its allies 
recognized the human dimension of security. As is evident from 
Russia's intervention in Ukraine and annexation of Crimea, 
Russia doesn't respect human rights nor existing borders.
    Unless the U.S. actively defends the European order, Russia 
will continue to erode it and Europe will grow less stable. The 
expansion of Russian influence is likely to reduce support for 
the transatlantic alliance and weaken resistance to Russia's 
violations of territorial integrity.
    The spread of democracy serves U.S. economic interests as 
well. Corruption and weak rule of law put U.S. businesses at a 
disadvantage. And restrictions on media limit access of 
American companies, as was seen by Russia's decision to block 
LinkedIn.
    When the U.S. defends human rights, it is not imposing its 
values on other countries. It is holding other governments to 
account for failing to follow their own laws and international 
human-rights commitments. The United States lives up to its 
international commitments. It's only fair that we expect Russia 
and others to do the same.
    I have several recommendations to counter the spread of 
Russia's repressive practices and media manipulation.
    First is to staunchly defend the norms that are established 
by the OSCE and other international conventions and respond 
firmly and vocally to violations.
    Second, the U.S. should lead democratic countries in 
publicly criticizing and diplomatically pushing back on 
initiatives to replicate Russia's repressive practices; for 
instance, the introduction of the foreign-agent law in Hungary.
    We call on the Congress to push for full enforcement of the 
Sergei Magnitsky Rule of Law Accountability Act and the Global 
Magnitsky Human Rights Accountability Act, and specifically 
urge the President to add more senior Russian officials to the 
Russia sanctions list and to impose sanctions on officials 
under the Global Magnitsky Act.
    We support robust continued funding for U.S. foreign 
broadcasting--RFE/RL, VOA--even mindful of the current budget 
environment and likely reductions in federal spending. We think 
it's critical to support independent Russian-language media, 
and also to continue assistance for human-rights and civil-
society activists, following their lead on what forms of 
assistance are most helpful.
    A firm U.S. response to the spread of Russia's repressive 
practices is critical to defend American values, protect the 
European order and advance U.S. security and economic interests 
in Europe and beyond.
    Thank you, Mr. Chairman.
    Mr. Wicker. Thank you very much. Thank you, all three, for 
your testimony.
    And before I go to Representative Cohen, who is next on the 
list, I want to take a matter of personal privilege and ask 
Orest Deychakiwsky to stand. [Applause.] Now, just remain 
standing for a moment. [Laughter.]
    Orest has faithfully served the Helsinki Commission for 35 
years. And this is not only his last hearing, but actually his 
last day of service for the Commission. So I want to thank you 
and ask unanimous consent that, when this hearing adjourns 
today, that we adjourn in honor of Orest Deychakiwsky and his 
35 years of service. Without objection. [Applause.]
    And I might mention that Representative Dr. Burgess has not 
been able to stay with us, but asked that a statement be 
included in the record. And, without objection, that will be 
done.
    Mr. Cohen, you are recognized to question these witnesses.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Senator Wicker. And thank you for 
holding this important hearing at this time.
    Firstly, I have to admit I was a bit remiss at preparing. 
And so, Mr. Kara-Murza, I was surprised to see you here. I 
didn't realize you were going to be a witness. And I've kept up 
with your travels. I can recommend a new path of travel and a 
new travel adviser. But I'm so pleased that you're here and in 
good health. I was very concerned about you and read all the 
articles. You're a brave man.
    I care about human rights greatly, and that's why I'm on 
this Commission. But I do want to ask you--and anybody who 
would like to help if they have any answers--do you have any 
knowledge about any involvement of Russia in our elections? Do 
you have people that you had contact with in Russia that have 
advised you or given you opinions about what Russia might have 
done to manipulate, through the media, our elections, or to 
hack our elections or to be involved, or people they may have 
had contact with?
    Mr. Kara-Murza. Thank you, Congressman. Thank you for your 
kind words. I hope you were surprised in a good way to see me.
    Mr. Cohen. A very good way.
    Mr. Kara-Murza. Thank you very much.
    Mr. Cohen. A very good way.
    Mr. Kara-Murza. On election interference, I certainly don't 
have any inside information. As you can imagine, I don't have 
too many interlocutors in the current Kremlin administration. 
[Laughter.] But the Putin regime has been known to interfere in 
elections in other countries for many years. So when this talk 
began, there was nothing surprising, frankly, or new about 
this. They've tried to interfere and did interfere in elections 
in Ukraine, in Georgia, in Moldova, and all these other 
countries. And if they were able to do all of that over seven 
years, basically without any significant reaction from the 
international community, you know, why not try to upgrade a 
little bit?
    So I don't have any specific inside information, but it 
certainly would not come as a surprise if there were any facts 
on this particular issue. Thank you.
    Mr. Cohen. Do any of the other witnesses have any opinions 
to offer?
    Dr. Calingaert. I don't have information beyond what's in 
the public record.
    Mr. Cohen. Thank you.
    The killing of your friend, Mr. Nemtsov--it's alleged that 
these two or three guys were Chechens or agents of Ramzan. They 
haven't spoken? Do they think they're innocent? Or what's their 
story?
    Mr. Kara-Murza. Thank you, Congressman. This is a very 
important question. And as you can appreciate, it's a very 
personally difficult issue for all of us. But in terms of the 
investigation, there's currently a trial ongoing. There are 
five defendants, all of them Chechens, all of them directly 
linked to Ramzan Kadyrov, the Kremlin-appointed leader of 
Chechnya.
    And at the moment of the assassination on February 27, 
2015, the alleged gunman, a man by the name of Zaur Dadaev, was 
actually a serving officer of the interior ministry of the 
Russian Federation. This is why the trial is going on in a 
military court, as opposed to a civilian court, because he was 
a serving officer.
    And so I don't want to say anything definitively before 
there's a verdict. The verdict is expected at the end of May, 
from what we believe. But this is only the lowest level of 
people who are on trial. Investigations have been unable or 
unwilling to go beyond this unspoken glass ceiling, to go to 
any of the higher-ranking people.
    For example, there were reports last year in RBK, an 
independent Russian newspaper, that General Alexander 
Bastrykin, who is head of the Russian investigative committee, 
who's also now on the U.S. Magnitsky list for human-rights 
abuses, has personally vetoed attempts by lower-level 
investigators to question a man named Ruslan Geremeyev, one of 
the key persons in Kadyrov's entourage, to name him as an 
organizer in the assassination. Bastrykin personally vetoed 
this twice.
    And despite the numerous requests by lawyers acting for 
Boris Nemtsov's family to question Kadyrov himself; to question 
Adam Delimkhanov, who is a member of the Russian State Duma, 
the right-hand man of Kadyrov; to question General Viktor 
Zolotov, who is now the commander of the National Guard of the 
Russian Federation, who was previously commander of the 
interior forces of the interior ministry--he was actually 
officially the superior of Dadaev, who is the accused gunman--
but again, both investigators and courts have refused to even 
question these people.
    So we're seeing this glass ceiling on the investigation. 
They're unable or unwilling to go higher than the lowest level 
of alleged perpetrators. And this is why we think it is very 
important to have international attention and international 
mechanisms, to the extent we can, involved in this 
investigation. We have been able--and this is thanks to the 
efforts of Zhanna Nemtsov, Boris Nemtsov's daughter, and her 
lawyer, Vadim Prokhorov, who have been able to push for a 
decision by the Parliamentary Assembly of the Council of 
Europe, of which, of course, Russia is a member--to have a 
special rapporteur appointed to oversee this investigation.
    Unfortunately, there's really nothing that can replace a 
national investigation of this case, unless the country itself, 
the government of the country itself, requests it--like, for 
instance, the Lebanese did with the Hariri case, or Pakistan 
did with Benazir Bhutto's case at the U.N. Security Council. 
Needless to say, Mr. Putin's regime is not going to do that.
    So the only thing we can do in the absence of an 
international mechanism for investigation is to have 
international attention, an international oversight of the 
investigation. So we would urge our partner countries in the 
OSCE also, including the United States, to raise this issue, to 
talk about this, to ask questions in OSCE Parliamentary 
Assembly settings and elsewhere, in bilateral contacts, when 
U.S. officials go to Moscow or when Russian officials come 
here. And there are bilateral meetings. It's important to raise 
this issue, not to let them sweep it under the carpet and 
forget.
    And there's one more issue I would like to mention in the 
context of your question. They haven't just killed Boris 
Nemtsov himself. They're also trying to kill his memory. They 
have rejected--by they, I mean Russian authorities--have 
rejected numerous petitions and initiatives for any kind of 
commemoration of his name. They wouldn't even let us put up a 
small sign, a street name, nothing.
    They actually come and steal flowers from the bridge. 
People still bring flowers to the spot where he was killed. 
Every night, Moscow police come in and they steal the flowers. 
You should see the videos--it's mind-boggling--of these grown 
men in uniforms running around like thieves in the night and 
stealing flowers from the bridge.
    So it's very important--while we cannot do anything to 
commemorate him in Russia, for obvious reasons, it is important 
to commemorate him where it is possible to do so, which is 
outside of Russia. And there's actually a congressional bill of 
which Chairman Wicker is a cosponsor--it's S. 459 in the 
Senate; it's H.R. 1863 in the House--that would re-designate 
the address of the Russian embassy in Washington, D.C. as 1 
Boris Nemtsov Plaza. And this is very important, I can tell 
you, not just for Boris's family, but for many friends and 
colleagues back in Russia. So, if that were to happen--I know 
it sounds small and symbolic, but it is really, really 
important.
    Mr. Cohen. Thank you for what you're doing to preserve his 
memory. And I know you've done much work, and that's why you 
went back to Russia. And I'm a co-sponsor of that bill in the 
House. When I saw it, I had to take a second look. I thought 
that is a pretty effective way of continuing his memory.
    Mr. Kara-Murza. Thank you very much for that.
    Mr. Cohen. It's a remembrance, which is so important. 
Yesterday was Holocaust Memorial Day in the United States. And 
it's important that we never forget atrocities and we never 
forget the people who stand up for freedom. Your friend, Boris 
Nemtsov, was one.
    Now, I've read somewhere the idea that these folks who 
killed him acted on a directive from Chechnya as a gift to 
Putin, never saying that Putin might have called his buddy and 
said help me. What is your speculation as far as the level of 
involvement? Does it just go to Chechnya and Kadyrov, or does 
it go back to Putin?
    Mr. Kara-Murza. Well, first of all, political 
responsibility for this assassination lies squarely with 
Vladimir Putin and his regime. When the leader of the 
opposition, of the national opposition, is assassinated, 
especially in such a place, in front of the Kremlin, it is the 
government that bears responsibility. It is the government that 
bears responsibility for the campaign of hate and attacks and 
slander against opponents of Mr. Putin in general, but 
specifically against Boris Nemtsov.
    For years he was vilified on Russian state TV. My 
colleagues mentioned the role, the nefarious role, that state-
controlled broadcasting in Russia today plays in this regime 
and its propaganda. It is absolutely vicious. They've described 
him as an American agent, as a traitor, as part of a fifth 
column. They said he would have welcomed Nazi troops if he was 
alive in 1941 in Moscow. I'm not making this up. These are all 
direct quotes that were reported day after day after day for 
years.
    So this atmosphere of hatred and intimidation didn't just 
come out of nowhere. The atmosphere that made it possible to 
assassinate the leader of the opposition in front of the 
Kremlin was created by those propaganda outlets that are 
directly controlled by Mr. Putin and his regime.
    And, of course, the impunity and the lack of any kind of 
real investigation when it concerns the organizers and 
masterminds of the assassination are also a direct 
responsibility of the current regime, because it's they who are 
doing it.
    So, of course, I don't have any specific information as to 
how it was done. I very much hope--in fact, I am certain--that 
one day we will know the truth and that one day those people 
who did this to him will face justice, according to the law in 
our own country. Until that day comes, we need to make sure 
people remember and we need to make sure people pay attention.
    Mr. Cohen. There does seem to be a trend in Russia. There 
was the former parliamentary member who was assassinated on the 
23rd of March? I guess that's what Putin wants to send, a 
signal to those who oppose him. He is unbelievable.
    Tell me something about the oil company they kind of took 
from the multibillionaire oligarch who I think was 
incarcerated. Is he dead now? The gentleman that created that 
oil empire, gas empire that was taken over by----
    Mr. Kara-Murza. Right. I think you're referring Mikhail 
Khodorkovsky----
    Mr. Cohen. Yes.
    Mr. Kara-Murza. ----who was the CEO of Yukos, which was 
Russia's largest oil company; he was also the richest man in 
Russia when he was arrested in 2003 in October for daring to 
behave independently of the Kremlin. He supported opposition 
parties. He supported civil society projects. He openly exposed 
government corruption in a televised meeting directly with 
Putin sitting across from him like I'm now sitting across from 
you.
    He spent more than 10 years in prison. He was pardoned and 
released at the end of 2013 as part of this mini thaw that came 
before the Sochi Olympics. And he was not just released, he was 
basically kicked out of the country because they only removed 
the police and prison escort from him when he was put on a 
plane belonging to a former foreign minister of Germany, the 
plane that took him to Germany.
    He's now based in the United Kingdom and he's actually the 
founder of the Open Russia movement of which I have the honor 
of being the vice chairman. So he's now back to the work of 
supporting civil society, supporting pro-democracy activists in 
Russia with a main focus on helping and empowering and training 
the young generation of democratic activists across Russia. 
Those are the very people that we're seeing now rise up in the 
tens of thousands across the country to protest against 
authoritarianism and corruption. So after spending more than 10 
years in jail, he's now very much free, thankfully, and very 
much involved in what's happening in Russia.
    Mr. Cohen. Well, I've read about him. I am happy to know 
he's alive. I didn't know, you know, where he was now. The 
company, which they basically just stole from him, is 
apparently the company that apparently Putin might have an 
interest in now. And much of their future earnings would be 
based on their relationship with ExxonMobil and drilling in the 
Arctic. Is that accurate?
    Mr. Kara-Murza. The company that--well, let me put it in 
the most diplomatic way I can. The company that ended up having 
most of the assets that were stolen from Mr. Khodorkovsky and 
Yukos is a company called Rosneft, which is a majority state-
owned oil company which is headed by Mr. Putin's longtime and 
very close, personal friend, a man by the name of Igor Sechin, 
also from the KGB, as most of them are. And yes, Rosneft does 
have a very active international life, as it were, and 
international partnerships. And yes, it does have several 
partnerships with Western oil and gas companies.
    There are also many lawsuits, international lawsuits, 
including at the Arbitration Court in The Hague, filed by 
former Yukos shareholders. I have to say, Mr. Khodorkovsky is 
not one of them because he sold all of his shares while he was 
still in prison, so he's not involved in any of these legal 
processes. But other former Yukos shareholders are actively 
pursuing legal avenues obviously outside of Russia on the 
international stage because, as you well understand, it's 
impossible to do it in the current judicial system in Russia 
against Rosneft and against the people who basically stole and 
plundered this company. So you're exactly right in that.
    Mr. Cohen. Putin has gotten himself pretty involved with 
the church and that's politically wise for him, I guess. And 
the church has gone along with it. And I think that may be one 
of the reasons why Pussy Riot was arrested and treated like 
they were because it was a church-Kremlin relationship, and so 
it made for a perfect opportunity to punish somebody. That 
continues, I guess. And how are other religions? How are Jews 
treated in Russia this day? Is there freedom of religion for 
Christians and other minority religions?
    Mr. Kara-Murza. Well, of course, the situation with freedom 
of religion is definitely much better than it was in Soviet 
times. I think that's one area where things haven't 
deteriorated as badly as they have in other areas. Although, I 
must say there are also cases that go against the principle of 
freedom of religion. I mean, just recently the Russian supreme 
court banned the Jehovah's Witnesses, for instance, as an 
extremist group.
    Mr. Cohen. Right. I saw it was illegal to be a Jehovah's 
Witness, isn't it?
    Mr. Kara-Murza. They said these are extremist views, so 
they have been banned for that reason.
    As far as all the major religions go, the so-called major 
traditional religions, which is Christianity, Judaism, Buddhism 
and Islam, those are the four traditional religions recognized 
in Russia, there is freedom of religion for worship, needless 
to say. And I think it would be fair to say, as you mentioned, 
that there is this close relationship between the people who 
are currently in power and the leaders or the hierarchy I 
should say of basically all of those major organized religions. 
I mean, Mr. Putin regularly has meetings obviously with Russian 
Orthodox church leadership, but also with the leaders of the 
Jewish religion in Russia, with Islam and Buddhism.
    But I wouldn't equate the leadership and the hierarchy with 
believers and even with the clergy. There are different views 
among the clergy; for instance, I know very well this Russian 
Orthodox priest whose name is Father Georgy Edelstein. He's a 
member of the Moscow Helsinki Group, one of the oldest human 
rights organizations in Russia; he's also a serving Russian 
Orthodox priest, and there are others who are not afraid to 
state their opinions which may be, in many cases, different 
from what the government wants them to believe and say.
    So, in general, I think you're right to say that there is 
this close relationship between the current regime and the 
hierarchy of religious organizations. But generally, I think, 
on the level of people, of citizens, freedom of religion, 
that's an area where things are a little better than in other 
areas, such as freedom of the media certainly, or freedom of 
political opposition.
    Mr. Cohen. Thank you very much. I yield back.
    Mr. Wicker. The congressman has no time to yield back. 
[Laughter.] But we've had a good discussion.
    Mr. Kara-Murza. Forgive me, that was probably me rather 
than him.
    Mr. Wicker. No, it was the chair.
    Ms. Jackson Lee.

HON. SHIRLEY JACKSON LEE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Ms. Jackson Lee. I thank you, Mr. Chairman, very much.
    And I welcome all the witnesses here. I am a new member of 
the Commission and delighted to be here. I am also the ranking 
member of the House Judiciary's Subcommittee on Crime, 
Terrorism, Homeland Security and Investigations. Their hearing 
is going on as we speak, and so I will ask my questions and beg 
your pardon for my leaving the hearing early.
    But I do want to mention, as my colleagues have done, 
yesterday was the Holocaust memorial and want to again take 
note of that heinous and horrific and violent and singular act 
of barbarism.
    I do want to take note of the fact of where we are as it 
relates to Russia, because when the Soviet Union was broken up, 
I know there was a great deal of hope and aspirations and 
inspiration because we had believed we could not change 
Russians' political infrastructure; it's a communist country. 
But when I say ``could not change,'' we had hoped that the 
various voices would be allowed to speak freely and the 
people's will could then be directed according to those voices 
of the Russian people.
    So I do want to say to you, Mr. Kara-Murza, you are a 
living miracle and testament to the fortitude of the Russian 
people, who have a great history and whom many of us admire. 
And we want that kind of, how should I say, seeding of 
democracy to be able to thrive. You have survived. You have 
been under threat of death; and therefore, it certainly is an 
example of not what we want to have happen, but that we must 
now fight even harder.
    So I want to ask unanimous consent that my statement be 
submitted into the record----
    Mr. Wicker. Without objection.
    Ms. Jackson Lee. ----and just make these points. Thank you.
    Russia has not had a free and fair election since March 
2000. It shocks the American conscious to grapple with the 
somber realities that opposition activists like yourself, Mr. 
Kara-Murza, are routinely assaulted or even murdered, giving 
rise to a new term, the ``sudden Kremlin death syndrome,'' 
which I'm going to pursue in questions.
    Political prisoner numbers now match those of the late 
Soviet era, which is shocking. And on March 26th, tens of 
thousands of people in cities across 11 time zones protested 
widespread government corruption with more than a thousand 
arrested.
    So this question will go to all three witnesses. And we'll 
start with Mr. Kara-Murza, but all of you will answer. First, 
give me your sense of the ``sudden Kremlin death syndrome.'' 
There may be others that are not as well-known that have 
mysteriously lost their lives because they dared to oppose the 
regime--that's under the umbrella of human rights, that you 
have a right to express your opposition and to live.
    The other question would be, your comments on this issue of 
prisoners, political prisoners without counsel, without being 
able to see family members. And everyone knows that when 
America begins to raise the question, someone will point out 
the high number of people we have incarcerated. I happen to be 
heavily engaged in reforming our criminal justice system. But I 
think we can match point for point in a more superior stance of 
our constitutional privileges and processes that we see every 
day.
    And so I really want to get into the weeds of how this is 
intertwined, the ``sudden Kremlin death syndrome'' and the 
issue of human rights and the incarceration of anyone that may 
offer themselves as an opponent or just simply want to express 
their rights for expression that oppose, in particular, Mr. 
Putin and his administration. And I certainly want to make sure 
that I said it right, the ``sudden Kremlin death syndrome.''
    Mr. Kara-Murza?
    Mr. Kara-Murza. Thank you very much for the questions, 
Congresswoman. As far as the deaths go, there are about 30 
people, who were prominent either in the political opposition 
or who were independent journalists and who were engaged in 
anticorruption campaigns and who were whistleblowers, who have 
lost their lives in one way or another since Vladimir Putin 
came to power 17 years ago. These were sometimes suspicious 
suicides or plane crashes or strange and very rare diseases. 
But in many cases, it was just plain and open assassination, 
like what happened to the leader of the Russian opposition, 
Boris Nemtsov, when they put five bullets in his back when he 
was walking home over the bridge in front of the Kremlin.
    And there certainly seems to be a very high mortality rate 
among the people who oppose Vladimir Putin, a mortality rate 
that defies any kind of normal statistical model. And the 
latest case of this was just a couple of days ago when a 
journalist in St. Petersburg, Nikolai Andrushchenko, who also 
engaged in anticorruption investigations, died after being 
beaten up by quote-unquote, ``unknown assailants.'' So, you 
know, I think there is no more horrible human rights violation 
than a violation of the right to life. And that right has been 
violated repeatedly since Mr. Putin came to power. And not only 
has it been violated, but it has been violated with impunity 
because not in a single case of those political assassinations 
were their organizers and masterminds brought to justice.
    In some of the cases the lower-level perpetrators were 
convicted, like in the case of Anna Politkovskaya, who was a 
journalist for Novaya Gazeta, who was assassinated almost 11 
years ago. There are alleged perpetrators who are on trial now 
in the case of the assassination of Boris Nemtsov, but never 
have the authorities pursued the higher-ups, those who 
organized those killings and those who masterminded them, not 
in a single case. So this impunity, needless to say, creates 
the conditions for these things to continue. And it's very 
important to pay attention to it and not to let them forget and 
hush up and sweep under the carpet.
    And as far as the political prisoners go, the Memorial 
Human Rights Centre, which is the most respected human rights 
organization in Russia today, which monitors the situation with 
political prisoners, it has a very high standard of defining 
what political prisoners are. So their estimate, it's actually 
based on the Council of Europe definition, and so it's pretty 
conservative. And even by that conservative estimate, there are 
115 people in Russian prisons today who are imprisoned on 
politically motivated charges.
    And you can see some of those people on the posters here. 
And these are opposition activists, these are journalists, 
these are people who took part in peaceful antigovernment 
demonstrations. These are people connected with the Yukos case 
that we mentioned, and many, many, many others. And it is very, 
very important to raise their cases, to talk about them, 
including in international fora, because we don't have the law 
protecting us in Russia. We don't have the rule of law under 
the current regime in Russia. The only thing that can serve as 
any kind of protection in these cases is international 
attention, international public opinion.
    And these people are not just imprisoned. They're also very 
often beaten, tortured. Ildar Dadin, who was an opposition 
activist, was thankfully released recently after a massive 
campaign, including an international campaign for his release. 
He was the first person in Russia to be imprisoned under a new 
law that was a specially passed law to target people who stage 
one-man pickets, one-man opposition pickets. So there's one 
person standing with a poster. And he was given a two-year 
prison sentence for that. He was released earlier. But while he 
was imprisoned, he was tortured and he had the courage to talk 
about it and to pass this information to the outside, so this 
became known. And the campaign for his release really took off 
and he was released, so this really does work and it's 
important to talk about this.
    And Ivan Nepomnyashchik, who is one of the people on this 
poster, who was imprisoned as part of the Bolotnaya case. This 
was a big anti-Putin opposition rally in Moscow in May of 2012. 
And there are people still in prison today for taking part in 
that rally, including him. He's only 27 years old. He was 22 at 
the time of the rally. And just a few days ago, he was severely 
beaten as well in the penal colony where he is held in the 
Yaroslavl region, not too far from Moscow. And as we know, as 
we've heard, they're now not even allowing his defenders, his 
lawyers to go and see him. So it is very, very important to 
continue to keep these issues and these cases and these 
specific individuals in the eye of public attention. And it's 
very important to raise those cases as well during bilateral 
talks.
    My colleagues mentioned the recent visit of the new U.S. 
Secretary of State Rex Tillerson to Moscow. I think it was 
regrettable that he did not find time to meet with civil 
society representatives or to talk about human rights. I think 
it's very important to do so. And there's been a long 
bipartisan tradition of U.S. Government and U.S. 
administrations and U.S. secretaries of state to meet with 
civil society representatives and to talk about human rights 
and to raise specific issues of political prisoners, before in 
the Soviet Union and now in Russia. And Carter did it, Reagan 
did it, Bush did it; it's important to continue to do this.
    Ms. Jackson Lee. Thank you.
    The other witnesses, if you can add a point or two, thank 
you.
    Ms. Denber. That was so comprehensive.
    Ms. Jackson Lee. If you can just focus on the human rights, 
political prisoners----
    Ms. Denber. I just want to give a little bit of detail 
about what it is that some of these other people are actually 
accused of.
    Mr. Wicker. Let's do that.
    And thank you, Ms. Jackson Lee, for giving us that opening.
    We've had these portraits up here the entire hearing. So, 
in response to Ms. Jackson Lee's question, I think that would 
be a nice segue for our witnesses.
    Ms. Denber. So let's look at Darya Poliudova. She's serving 
a two-year prison sentence. What do you think someone would 
have to do to merit a two-year prison sentence? What Darya 
Poliudova did was, she has a page on VKontakte, which is kind 
of the Russian version of Facebook, and she had three posts 
that came under scrutiny. One was a comment that she made, a 
satirical comment on what was happening in Ukraine. I won't get 
into the details. And she also posted a photograph of herself 
holding a poster that said, ``No war in Ukraine, but revolution 
in Russia,'' and another poster that said ``We need a 
Maidan''--which is a reference to the revolt, the public revolt 
that ousted Ukraine's former president back in 2014--``We need 
Maidan in Russia.''
    And those posts were visible to a very small group, you 
know, her 35 followers. She had 35 followers. And these were 
the posts that came under scrutiny. These are the posts that 
ended up landing her in prison. And she got a two-year prison 
term. It's absurd.
    You already talked about Dmitry Buchenkov. Dmitry Buchenkov 
is accused of, I think, assaulting a police officer during the 
2012 public protests that were just on the eve of Vladimir 
Putin's inauguration when he returned to the presidency. This 
is a case that the government has milked as much as it possibly 
can. It's called the Bolotnaya case because the protests 
happened on a place called Bolotnaya Square. It started out 
peacefully, police interfered and there were some scuffles 
between a very small number of the protesters and police. And 
as a result, more than a dozen people served prison terms, some 
of them quite long prison terms. And even though this happened 
in 2012, the government continues to pursue people who they 
accuse of being involved in violence against police during the 
protests. And Dmitry Buchenkov is one of them.
    He was arrested last year. And the thing is that he claims 
he wasn't even there. He has alibis testifying to the fact that 
he wasn't in Moscow at the time. If you look at his photographs 
and the photographs of the person the police are pursuing, 
because he allegedly beat a cop, you can see that these are not 
the same; it's not the same person.
    But nonetheless, he's spent actually more than a year in 
pre-trial custody and only a month ago and only after a really 
dedicated battle by Memorial and others did they finally 
release him to house arrest. So that's Dmitry Buchenkov.
    Oleg Sentsov, who was already mentioned, and maybe I'll 
only mention him briefly now because there is going to be a 
briefing devoted to his case tomorrow--I really encourage 
people to attend. Oleg Sentsov last night was honored by the 
PEN America Center at their annual gala. Oleg Sentsov is a 
filmmaker. He's actually a Ukrainian citizen, who lived in 
Crimea until he was arrested. And he was arrested together with 
a colleague, Mr. Kolchenko. The Russian Government has accused 
him of terrorism. The thing is that at the time when the little 
green men were creating the annexation of Crimea and shortly 
thereafter there were a couple of arson attempts on a couple of 
buildings in Crimea, and one of them was the building where 
Russia's main political party, Yedinaya Rossiya, United Russia, 
had its headquarters. There was an arson attempt. No one was 
hurt.
    Kolchenko is accused of carrying out these arson attempts. 
And because he's friends with Sentsov and because Sentsov spoke 
out a lot against the occupation of Crimea and actually, I 
think, tried to help Ukrainian soldiers at a time when things 
were very tense during the annexation, during the actual 
seizure of Crimea, the government really went after Sentsov. 
And they've sentenced him to 20 years in prison on charges of 
terrorism, for being in league together with Kolchenko in these 
arson attempts. There's no evidence against Sentsov whatsoever.
    And you just wonder, what it is that the Russian Government 
might be waiting for? What do they expect? Do they really 
expect to hold him for 20 years? Are they going to release him 
if there is enough pressure, like they released Nadiya 
Savchenko last year, another Ukrainian citizen who was a member 
of the Ukrainian armed forces and was arrested on wrongful 
charges?
    I don't want to go through every single one of these 
people, but I did want to highlight those cases. There are 
other cases like them in each one of the categories that we 
mentioned. And I think that the key point is why it is that 
there can be ``sudden Kremlin death syndrome,'' why it is that 
there can be people who are prosecuted because of political 
motives. How can that happen? It can happen because there's 
impunity and it can happen because the courts are not 
independent. It can happen because the government manipulates 
justice. And precisely because these cases are politically 
motivated, it means that there needs to be political pressure 
in order to end the injustice.
    Mr. Wicker. Well, thank you.
    Who mentioned public diplomacy? Who mentioned RFE and RL? 
Let me just ask both you, Ms. Denber, and you, Dr. Calingaert, 
to comment about the disparity in terms of the effectiveness 
and quality of propaganda coming from the Putin side of the 
equation and I guess what we would like to call the public 
diplomacy or information coming from our side.
    Is it a fair fight at all? And what should the United 
States be doing in that regard? Who would like to go first?
    Dr. Calingaert.
    Dr. Calingaert. Yes. You know, the scale of investment in 
Russian propaganda is really impressive. And also, the 
sophistication of it. And I will tell you, when I was teaching 
at Georgetown, I'd have my class look at clips from RT and 
basically have to answer the question, what is wrong with this 
picture? And think of it, even graduate students at one of the 
top universities would really have to think hard about how 
their view of a certain issue is being manipulated and 
sometimes would even miss key details. I mean, it really is 
that sophisticated.
    I think, in some ways, by its nature it's an uneven fight. 
I mean, what we are trying to encourage is fact-based news, a 
somber view of what's happening in the world, balance--and 
conspiracy theories are just more entertaining. I mean, it 
often comes down to that. But I think at the very least, we 
need to try to--I'm not sure if we could ever match the scale 
of investment that we give to RFE or RL and VOA and others 
compared to RT and Sputnik. But I think we can do and need to 
do a lot better in investing more and just trying to operate on 
the same scale.
    I also think that the U.S. foreign broadcasting is only 
part of the answer. There is some very high-quality Russian 
media, like Meduza, based outside of the country. And I think 
they have quite extensive reach. And it's important that their 
independence be maintained and their credibility. But if there 
are ways that we can encourage more of that, I think there is 
an appetite for real investigation, investigative reporting, 
coverage of anticorruption issues, news that Russian citizens 
can use that speaks to the problems in their daily lives, that 
that will, over time, reduce the appeal of the sensationalism, 
the conspiracy theories and the mind-bending that Russian 
propaganda is trying to carry out.
    Mr. Wicker. Ms. Denber.
    Ms. Denber. I would agree with everything Dr. Calingaert 
just said. I would also say that I think that what the Kremlin 
broadcast media tries to do and particularly the Kremlin 
foreign broadcasting, like RT and Sputnik, what they're trying 
to do is undermine the very notion that there can be or should 
be objectivity in media reporting. So their assumption--and 
some of their leaders have actually said this--is that, oh, 
come on, there really is no objectivity, you know, and look at 
these mistakes that all of these outlets make, and so they're 
fake news.
    So, of course, every reporter might come to a story with a 
bias, but there's a great difference between the things that 
you do to overcome that bias on the one hand, and on the other 
hand the complete perversion of objectivity in media reporting 
that we see in some of the Kremlin broadcast institutions.
    So they are trying to exhaust the reader and the viewer, to 
sort of shower you with so many----
    Mr. Wicker. Bombard the viewer.
    Ms. Denber. Exactly, to bombard the reader, to dull your 
senses, to sort of put you into a haze where you say, yeah, 
yeah, that's all, it's just too hard to figure out so I'm not 
even going to bother to try, and to make the viewer sort of 
disengage from even the search or the hunger for the truth.
    I think it's doesn't work. I think that it fails. I think 
that after a while people distrust those outlets just as much 
as they might have distrusted at some point other outlets. And 
I think the answer is to continue supporting outlets like Radio 
Liberty and Voice of America, but the answer is also to ensure 
that they maintain a high level of quality journalism. There 
needs to be a fair fight, but I think that outlets like Radio 
Liberty need to keep to reporting facts, need to keep to 
looking at all sides of the story. They should not feel that 
they can sink to the level of what has become fake news.
    Mr. Wicker. But, Mr. Kara-Murza, as a resident of Russia, 
it's actually the mainstream media, the everyday programming, 
is it not, that contains the exact message that the Putin 
regime wishes to be disseminated?
    Mr. Kara-Murza. Absolutely, Mr. Chairman. And this has been 
going on for years. And this has been going on aggressively. In 
fact, the first thing--the first thing--Mr. Putin did when he 
came to power back in the early 2000s was to silence the voices 
of independent television. It was in his first three years in 
power he shut down or took over three nationwide independent 
television networks. And now, all the state media in Russia are 
propaganda outlets for the government and nothing else, who 
will tell you that everything the authorities do is perfect and 
who will tell you that those who oppose Mr. Putin are traitors, 
enemies and foreign agents.
    Mr. Wicker. And the regular programming, the regular 
entertainment comes right along with that very broadcast.
    Mr. Kara-Murza. Of course, it's intermixed, so you'd watch 
movies, you know, you'd watch a TV series, many of which are 
done with very high quality and there's certainly no shortage 
of investments going into state media, domestic state media. 
And then, of course, that would be intermixed with those, 
quote-unquote, ``news messages'' and so-called discussion 
programs or you would never really get any differing points of 
view. You would just get bombarded, to use the term that you 
used, with the propaganda messages.
    And propaganda, sometimes people dismiss it as just 
something of second-tier importance. But propaganda can be very 
powerful. Propaganda can kill, as we discussed recently.
    Mr. Wicker. It works.
    Mr. Kara-Murza. Absolutely. And if I could just say a 
couple of words on the foreign broadcasting aspect, I think the 
only effective way to counter the lies and the propaganda is 
with objective information. And for now, I don't think there's 
a level playing field in terms of this foreign broadcasting. 
I'm quoting these figures from memory, but I think if I'm 
correct, the White House budget request for both RFE, RL and 
Voice of America services in the Russian language for the 
current fiscal year is 15 million U.S. dollars. The annual 
budget of RT is 300 million U.S. dollars, so it's a factor of 
20. So I think it's very important to maintain something at 
least close to a level playing field here.
    Mr. Wicker. Well, let me then get back to the idea of an 
expanded Magnitsky list. Do any of you have specific 
suggestions, either in open testimony today or for the record, 
about names that should be added?
    Mr. Kara-Murza. Can I start? There are now 44 people 
sanctioned on the U.S. Magnitsky list. And I have to say that 
in the early years since the law was passed, the administration 
was very timid in implementing it in terms of putting the 
actual names on the list. And the highest-profile people were 
put on this list just this year, in January of this year, in 
the last two weeks of the former administration when they put 
in, for example, Andrei Lugovoi, who is a member of the Russian 
parliament, who was found by a British public inquiry to have 
been responsible for the murder of Alexander Litvinenko in 
London in 2006.
    And as we discussed earlier in this hearing, they put 
General Alexander Bastrykin, who is a top law enforcement 
officer in the Putin regime, the guy who's responsible for all 
these politically motivated prosecutions, who is responsible 
for the Yukos case, who once personally took a leading 
independent journalist to a forest near Moscow and said, ``if 
you continue with your investigations I'm going to kill you, 
I'm going to bury you here and, by the way, I'm going to be in 
charge of the investigation, ha, ha.'' So that person is 
finally on the Magnitsky list and he's the most high-profile 
Putin official to be there.
    But, of course, there are many, many more who deserve to be 
put on that list. Of course, there is a complex and fundamental 
process that accompanies the way these people are screened 
before being put on a list. But if you're asking for specific 
suggestions, well, certainly Ramzan Kadyrov was mentioned 
several times during this hearing. In the various aspects of 
human rights abuses that he's been involved in, he certainly 
belongs--I mean, we've heard, we've seen reports in the U.S. 
media, all the leaks, all the sources saying that he is on the 
classified section. Of course, there is no way we could know 
that, whether that's true or not. Even if he is, I think that 
one of the main purposes of the law is public naming and 
shaming of these human rights abusers.
    Mr. Wicker. This is Mr. Putin's man in Chechnya.
    Mr. Kara-Murza. He's Vladimir Putin's man in Chechnya and 
he's responsible for the countless human rights abuses there. 
Even by the standards of the Putin regime, Chechnya is a 
particular black hole when it comes to human rights. They have 
torture, they have killings, they have disappearances. 
Opponents and enemies of Mr. Kadyrov have ended up dead not 
just in Chechnya, but in Moscow and Dubai and in Vienna, 
Austria. So that guy certainly does merit belonging to the 
Magnitsky list.
    There are many others. Yury Chaika is another person that 
comes to mind, the current prosecutor general, who is also 
responsible for countless politically motivated prosecutions.
    Mr. Wicker. It is a fact that our ambassador to the United 
Nations has specifically spoken out against these violations in 
Chechnya and the attacks. Is that correct, Mr. Kara-Murza?
    Mr. Kara-Murza. Yes, you are right.
    Mr. Wicker. And also, I would note that Senators Rubio and 
Cardin have been particularly outspoken in this regard.
    There's going to be a vote soon on the Senate floor.
    Mr. Cohen, do you have other questions?
    Mr. Cohen. Just one, thank you.
    I was in Russia and we visited a couple of times, but one 
time we had Steven Seagal join our CODEL. And he seemed to have 
a fascination with the Chechen muscle man. He also, I think, 
wanted to sell some Kalashnikov rifles over here. What is his 
status and how close is he to Putin and to Ramzan?
    Mr. Kara-Murza. How close is Ramzan to Putin?
    Mr. Cohen. No, to Steven Seagal. And is he still--does he 
have dual citizenship now?
    Mr. Kara-Murza. No, Gerard Depardieu does, the French 
actor, he is a dual citizen. He was given a Russian passport.
    Mr. Cohen. Yeah, I knew he did, but Seagal, see, he was 
telling us that he had some type of Mongolian heritage and he 
claimed to be----
    Mr. Kara-Murza. I'm afraid I have to excuse myself, I'm not 
a very big expert on Steven Seagal, but we certainly have seen 
him paraded on Russian state media sitting with Mr. Putin, at a 
stadium during a sports event. He certainly does come to Russia 
a lot and goes to meet with all these officials. But frankly, I 
hope I'm not offending anyone, I don't think he's taken too 
seriously by most people in Russia.
    Mr. Cohen. Thank you. That's good news. [Laughter.]
    Mr. Wicker. Well, we could go on and on. Let me say this 
about Boris Nemtsov. I hope the House and Senate can get this 
legislation through to name an important open area for Mr. 
Nemtsov here in the United States. I was a member of a 
delegation led by Representative Curt Weldon back in 1998. 
Steny Hoyer, the current minority leader of the House of 
Representatives, was the ranking Democrat on this relatively 
large, bipartisan delegation to Moscow. And we had the 
opportunity to meet with this young, energetic, bright deputy 
prime minister serving under Prime Minister Chernomyrdin and 
President Yeltsin. And I'll tell you, he was no apologist for 
the West. He was giving us the Russian point of view in every 
respect, up to and including urging the United States not to 
support NATO expansion. He felt that it would be bad for the 
status quo, bad for his own country and recommended it as being 
bad for the West. And I disagreed with him and I think I'd 
probably still disagree with him.
    But the point is, this was a loyal Russian official, a 
bright, young, up-and-comer that had the opportunity to be 
deputy prime minister for a time. And he loved his country and 
he wanted his country to be free and open and the citizens 
there to be free. That was the difference. And when it became 
obvious in the Duma that President Putin intended to move 
basically toward one-party authoritarianism, Boris Nemtsov 
called it what he saw it, a coming dictatorship. And that was 
the beginning of Boris Nemtsov's fall out of favor.
    And I just have to say that it is the very least we could 
do to honor this brave individual who spoke out and led those 
oppressed dissidents in Russia. And so I hope we can double our 
efforts, Representative Cohen, to get this legislation passed, 
to have the Boris Nemtsov Plaza.
    I would also, before we adjourn, ask unanimous consent that 
we include in the record of this hearing the photographs and 
one-paragraph descriptions of the individuals [Russian 
prisoners] who are on display here. And without objection, that 
is so ordered.
    And at this point, if there's nothing else, this hearing 
will stand adjourned with the thanks of the chair and in honor 
of Orest here. [Applause.]
    [Whereupon, at 11:12 a.m., the hearing ended.]







                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


  Prepared Statement of Hon. Roger F. Wicker, Chairman, Commission on 
                   Security and Cooperation in Europe

    The Commission will come to order, and good morning to everybody.
    The 115th Congress has already, in its very first months, devoted 
considerable attention to threats posed by Russia--to the states of the 
former USSR, to all of Europe, and even to the United States through 
Russia's interference in our very own elections, a matter that remains 
under investigation by multiple U.S. authorities.
    What we have not yet done, and this goes well back into the 114th 
Congress, is take a long hard look at the continuing violations of 
democratic norms and human rights within Russia itself, so I am happy 
that my first hearing as Chairman of the U.S. Helsinki Commission can 
focus on this very important and timely topic.
    I am especially glad that we have such an expert panel of witnesses 
to testify today on the impact these abuses have, not only on the 
people of the Russian Federation, but on the larger international 
community by effectively silencing the voices of the opposition within 
Russia and giving the Putin regime a free hand to act with impunity 
abroad.
    We will begin with somebody who is no stranger to me, to the 
Helsinki Commission, nor to the halls of Congress thanks to his 
tireless work promoting democracy in Russia. Despite the Putin regime's 
efforts to silence him through two poisonings, Mr. Vladimir Kara-Murza 
is still with us today, and I can't think of anybody in a better 
position to tell us about the intense--and all too often lethal--
pressure being applied to brave Russians like him who engage in 
opposition politics. Vladimir, thank you for joining us and for your 
courage and that of your family in facing the hardships that 
unfortunately befall critics of the Putin regime.
    We are also very fortunate to have representatives of two of the 
top independent organizations promoting human rights and freedom of 
expression across the globe--Human Rights Watch and Freedom House. 
Rachel Denber will be sharing with us highlights of her years of work 
following human rights issues in Russia for Human Rights Watch, 
including the shocking stories of murder and repression in Chechnya 
that have recently come to light. Human Rights Watch has been the only 
international organization actively following that case.
    Daniel Calingaert is the Executive Vice President of Freedom House, 
an organization that needs no introduction here. Freedom House's annual 
publications, Freedom in the World, Freedom of the Press and Freedom of 
the Net, have been invaluable in helping Congress and proponents of the 
freedom of expression and democracy all over the world track both 
progress and backsliding on these fundamental freedoms around the 
globe. In the case of Russia, the trends have not been positive, and we 
look forward to hearing much more about that.
    Let me offer a word about the portraits of people you may have 
noticed on your way in, and which you will also see here at the front 
of the room. These represent several well-known political prisoners 
currently behind bars in Russia; we will hear about many of them during 
this morning's hearing. Let me stress that the people portrayed here 
represent only a fraction of the dozens of political prisoners held in 
Russia--indeed, some groups following this issue, like the NGO 
``Memorial,'' estimate the number is in the hundreds. We wanted to be 
able to help our audience see at least a few of the faces behind some 
of the names you will hear today and, we will of course have much more 
information on political prisoners in the material that will be 
submitted for the written record.
    We hope to accomplish two things at today's hearing. First of all, 
we want to draw much-needed attention to the ongoing serious abuses of 
human rights in Russia, to remind all members of Congress and the 
American public that the situation in Russia is grave and could 
continue to deteriorate. Secondly, with our witnesses' assistance, we 
would like to evaluate how our current approach to human rights abuses 
in Russia is working, and to consider what we can do to get things back 
on a positive trajectory in Russia. Ultimately, a Russia that fully 
respects all of its citizen's human rights, that allows for full 
freedom of expression and religion and for free and fair elections will 
be a place where all Russians can prosper. Those improvements would 
also make Russia a much better neighbor, and would go a long way 
towards promoting peace and security in the entire Eurasian region.
    We have a lot to discuss, so I'd like to now yield to Senator 
Cardin.

Prepared Statement of Hon. Benjamin Cardin, Ranking Member, Commission 
                 on Security and Cooperation in Europe

    Mr. Chairman, thank you for holding this important hearing on 
Russia and particularly the opportunity to focus on violations of 
fundamental freedoms and the repression of democracy, the rule of law, 
independence of the judiciary, and free and fair elections. These 
abuses are directly related to the acts of aggression that have been 
the focus of so much congressional inquiry this year already.
    A few weeks ago, we saw Russian citizens demonstrate across the 
length and breadth of the Russian Federation in an effort to end the 
systemic corruption that corrodes the everyday lives of people from all 
walks of life. Remarkably, an estimated 30,000 truckers in 60 cities 
are continuing to protest a road tax collected by a private firm with 
ties to President Putin. In a country where peaceful protests in 
Bolotnaya Square were so severely punished a few years ago, these are 
striking manifestations against corruption and for the rule of law, 
independent institutions of accountability, and human dignity.
    These Russians ask no less of Russia than what Russia itself 
committed to in the Helsinki Final Act. In fact, it was in Moscow that 
the OSCE participating States explicitly acknowledged that ``issues 
relating to human rights, fundamental freedoms, democracy and the rule 
of law are of international concern, as respect for these rights and 
freedoms constitutes one of the foundations of the international order. 
They categorically and irrevocably declare that the commitments 
undertaken in the field of the human dimension of the [OSCE] are 
matters of direct and legitimate concern to all participating States 
and do not belong exclusively to the internal affairs of the State 
concerned.''
    I am particularly heartened that Vladimir Kara-Murza can be with us 
here today.
    When Mr. Kara-Murza testified before Congress in June 2015, he 
said,

        Our friends in the West often ask how they can be helpful to 
        the cause of human rights and democracy in Russia and the 
        answer to this is very simple. Please stay true to your values. 
        We are not asking for your support. It is our task to fight for 
        democracy and rule of law in our country.
    The only thing we ask from Western leaders is that they stop 
supporting Mr. Putin by treating him as a respectable and worthy 
partner and by allowing Mr. Putin's cronies to use Western countries as 
havens for their looted wealth.

    Vladimir, your courage and commitment is an inspiration and we are 
grateful that you are here to speak for others who have fallen in the 
struggle to speak truth to power.
    Tragically, those numbers continue to increase. Just a few days 
ago, a St. Petersburg journalist succumbed to his injuries after being 
beaten into a coma on 
March 9. His case is a reminder that many attacks have resulted in not 
only the loss of life, but in some cases have left people maimed or 
disabled for life.
    I also hope our witnesses will speak to the alarming reports we 
have received of large-scale and brutal attacks, some resulting in 
murder, targeting gay men in Chechnya. These attacks seem to reflect a 
horrific intersection of the government's hostility against LGBT people 
and the symbiotic relationship between President Putin and Chechnya's 
most notorious thug, Ramzan Kadyrov. I am also concerned for the safety 
of the two journalists, Elena Milashina and Irina Gordienko, who broke 
the story of this wave of violence and have been threatened for their 
courageous reporting.
    Mr. Chairman, I also welcome the opportunity to focus on the 
political prisoners and others detained in violation of Principal VII 
of the Helsinki Final Act--the right of people to know and act upon 
their human rights. The cases of these ``P-VII Detainees'' have been 
well documented by Memorial, the Russian civil society organization 
established to document the crimes of Soviet repression. If I may, Mr. 
Chairman, I would like to include in the record Memorial's list of 
political prisoners which was submitted at the OSCE's Human Dimension 
Implementation Meeting in Warsaw in September. I regret that Secretary 
Tillerson did not meet with independent civil society groups like 
Memorial when he visited Moscow, forgoing an opportunity to communicate 
U.S. support for an open and democratic Russia.
    Thank you, Mr. Chairman, and thank you to all of our witnesses for 
being here today.

Prepared Statement of Hon. Sheila Jackson Lee, Commissioner, Commission 
                 on Security and Cooperation in Europe

    Good morning Chairmen Wicker and Smith, and Ranking Members Cardin 
and Hastings and thank you for holding this hearing before the Helsinki 
Commission to discuss the grim state of human rights abuses and 
democracy in the Russian Federation.
    Russia's overt external aggression against countries such as 
Ukraine, its support for the Assad regime in Syria, and its efforts to 
disrupt western democracies are made possible by the internal 
repression of its own people.
    For example, Russia has not had a free and fair election since 
March 2000.
    It shocks the American conscience to grapple with the somber 
realities that opposition activists like witness Vladimir Kara-Murza 
are routinely assaulted or even murdered, giving rise to a new term: 
``Sudden Kremlin Death Syndrome.''
    Political prisoner numbers now match those of the late Soviet era, 
and on 
March 26, tens of thousands of people in cities across 11 time zones 
protested widespread government corruption, with more than 1,000 
arrested.
    And more nationwide protests are expected on June 12th, the 
national holiday of the Russian Federation.
    The Kremlin's crackdown on civil society, media, and the Internet 
took a more sinister turn in 2015 as the government further intensified 
harassment and persecution of independent critics.
    For the fourth year in a row, parliament has adopted laws and 
authorities engaged in repressive practices that increasingly isolated 
the country.
    Against the backdrop of the armed conflict in eastern Ukraine and 
sanctions against Russia over Crimea, anti-Western hysteria has been at 
its peak since the end of the Cold War.
    This hearing will examine the grim state of human rights and 
democracy in the Russian Federation.
    I look forward to hearing from the following witnesses scheduled to 
testify here today:

    1) Vladimir Kara-Murza, Vice Chairman, Open Russia;
    2) Rachel Denber, Deputy Director of the Europe and Central Asia 
Division, Human Rights Watch; and
    3) Daniel Calingaert, Executive Vice President, Freedom House

Prepared Statement of Hon. Michael Burgess, Commissioner, Commission on 
                   Security and Cooperation in Europe

    Thank you, Mr. Chairman.
    The invasion of Crimea was the realization of Russia, particularly 
Vladimir Putin's, dissatisfaction with the current European order and 
paranoia of a second collapse of the Russian regime. Putin wants NATO 
to fracture and international organizations, such as the Helsinki 
Commission, to weaken in order to create the necessity of a new order 
that is not predicated primarily on Western influence. To achieve these 
objectives, he has implemented an authoritarian regime that erodes 
democracy in Russia and regularly commits violations of non-
intervention and human rights principles agreed to by Helsinki 
Commission participating states.
    Russia has been engaging in overt and covert subversive action in 
the media, in cyberspace, and across international borders in order to 
further Putin's aggressive international agenda. He is rebuilding 
Russia's national identity through military action and a strategy of 
compiling and disseminating comprising information, or blackmail. This 
activity is hurting the basic freedoms and human rights of Russian 
citizens.
    Putin's political legitimacy is largely rooted in the performance 
of Russia's economy. Increased military spending, western sanctions, 
and low energy prices coupled with corruption are hurting the Russian 
people, but they are also helping to fuel their frustration. Just 
recently, tens of thousands of people protested corruption among 
Russia's elite, and the government reacted by arresting 800 people--
brutally beating many of those.
    But this isn't the first, or likely the last, time that challenges 
have been met with violence and human rights violations. Last year, 
over 250 journalists were jailed, with some being beaten and killed, 
141 independent organizations were designated as foreign agents without 
evidence, and at least eight prominent Russians have died or been 
poisoned under suspicious circumstances, including one of our witnesses 
today.
    In addition, Russia's example of aggressive suppression has led to 
the arrest, torture, and often killing of at least 100 gay men in 
Chechnya.
    The most blatant demonstration of Russia's lack of respect for 
democracy and human rights is its 2014 annexation of the Crimean 
peninsula. Despite an official ceasefire, known as Minsk II, the 
conflict in eastern Ukraine has remained frozen without any prospect of 
resolution. This status quo serves Russian interests by limiting the 
possibility of further European integration, undermining rule of law, 
and preserving a point of leverage for potential negotiations with the 
West on other international issues.
    When Malaysian Airlines Flight 17 was downed over separatist-held 
territory by a Russian missile, killing all passengers, Russia denied 
involvement and denounced the Dutch-led investigation as politically 
motivated, claiming Russia was the only country that provided credible 
information. Air operations were ceased in the Donbas region in 
September 2014, but the threat of this ongoing conflict has not 
dissipated. It has attracted foreign fighters, including Syrians, to an 
easily accessible and often untraceable arms market.
    In addition, two days ago an American paramedic serving on the 
OSCE's Special Monitoring Mission in Ukraine was killed when his 
vehicle struck an explosive in separatist-held territory. This death 
was entirely preventable. It is indefensible to allow Russia to 
perpetuate a frozen international conflict that has killed thousands of 
people from Ukraine, Russia, and the West.
    Vladimir Putin is able to engage in international and domestic 
bouts of aggression and suppression under the guise of protecting 
traditional values and the Russian homeland, all at the expense of the 
prosperity and freedom of his own people. This must stop.
    I look forward to hearing from our witnesses about their 
experiences and how we can work to promote democracy and end violations 
of human rights in Russia.

               Prepared Statement of Vladimir Kara-Murza

    Chairman Wicker, Co-Chairman Smith, Ranking Member Cardin, Ranking 
Member Hastings, Members of the Commission, thank you for holding this 
important hearing and for the opportunity to testify.
    This coming Saturday, April 29, pro-democracy activists across 
Russia will take part in a nationwide campaign organized by the Open 
Russia movement with a single message: ``Enough.'' They will hold 
rallies and send petitions calling on Vladimir Putin to leave the 
Kremlin when his current term--officially third, in reality fourth--
expires next spring. Mr. Putin has been in power for seventeen years. 
There is now an entire generation of Russians who have no memory of any 
other government.
    This longevity has been the result of a deliberate suppression of 
the opposition, independent media and civil society, and continuous 
violations of the rights and freedoms guaranteed to Russian citizens by 
our Constitution and by our country's commitments under the 
Organization for Security and Cooperation in Europe. Chief among these 
is the right to freely elect one's own government. After March 2000, 
not a single national election in Russia--presidential or 
parliamentary--was assessed by OSCE observers as free and fair. \1\ 
Unequal media access, the removal of opposition candidates from the 
ballot, and outright fraud have become the unfortunate norm in Russian 
elections. The result has been a parliament devoid of real opposition--
``not a place for discussion,'' in the words of its own former speaker. 
\2\
---------------------------------------------------------------------------
    \1\  Elections in Russia. OSCE Office for Democratic Institutions 
and Human Rights. http://www.osce.org/odihr/elections/russia
    \2\  ``Parliament is not a place for discussion.'' Kommersant. 
December 12, 2011 (In Russian) http://kommersant.ru/doc/1838005
---------------------------------------------------------------------------
    Major media outlets have also ceased to be places for discussion. 
Having taken control of all national television networks--the main 
source of news for Russian citizens--the Kremlin turned them into 
propaganda outlets that provide laudatory coverage of the authorities 
and portray Mr. Putin's opponents as a ``fifth column'' that works at 
the behest of foreign governments. Many of these opponents are in 
prison. According to Memorial, Russia's most respected human rights 
organization, there are now 115 political prisoners in Russia--a number 
comparable with the late Soviet period. \3\
---------------------------------------------------------------------------
    \3\  Current list of political prisoners. Memorial Human Rights 
Center (in Russian) http://memohrc.org/pzk-list
---------------------------------------------------------------------------
    They include opposition activists and their family members, such as 
Sergei Udaltsov, Oleg Navalny, and Daria Polydova; citizens jailed for 
taking part in antigovernment demonstrations, including construction 
engineer Ivan Nepomnyashchikh and history lecturer Dmitri Buchenkov 
(the latter was not even present at the rally for which he was 
charged--but a little Kafka never stopped the Russian judicial system); 
Ukrainians arrested after the annexation of Crimea, including the 
filmmaker Oleg Sentsov; and Allexei Pichugin, the remaining hostage of 
the ``Yukos case'' that saw the head of Russia's largest oil company, 
Mikhail Khodorkovsky, imprisoned for more than a decade for having the 
tenacity to support opposition parties and expose government 
corruption.
    Sometimes political opponents are dealt with without a recourse to 
formal procedures. In October 2015, at a hearing of this Commission, I 
recalled a near-fatal poisoning I had experienced in Moscow earlier 
that year. \4\ Today I could repeat that statement word for word, 
because I have now experienced this for the second time, also in 
Moscow, this past February. An identical picture: poisoning by an 
``undefined substance'' leading to multiple organ failure and a coma. 
Doctors estimated the chance of survival at five percent, so I am very 
fortunate to be sitting here today.
---------------------------------------------------------------------------
    \4\  ``Russian Violations of the Rule of Law; How Should the U.S. 
Respond?'' U.S. Helsinki Commission Hearing. October 21, 2015. 
Testimony by Vladimir Kara-Murza. https://www.csce.gov/sites/
helsinkicommission.house.gov/files/vkm-csce-testimony-21oct2015.pdf
---------------------------------------------------------------------------
    Many of our colleagues have not been as fortunate. Several 
opposition activists, independent journalists, anticorruption 
campaigners, and whistleblowers have lost lives in the last seventeen 
years. Two years ago, in the most brazen political assassination in 
modern Russia, opposition leader and former deputy prime minister Boris 
Nemstov was murdered on a bridge in front of the Kremlin. The official 
investigation is stalling: while the alleged perpetrators--all of them 
linked to the Kremlin-appointed leader of Chechnya, Ramzan Kadyrov--are 
on trial, the authorities have not pursued those who had ordered and 
organized the killing, and have refused to question potential persons 
of interest, including Mr. Kadyrov and the commander of the Russian 
National Guard, General Viktor Zolotov. \5\
---------------------------------------------------------------------------
    \5\  ``Court refuses to call Kadyrov for questioning in Nemstov 
murder case.'' RBC. December 6, 2016 (in Russian) http://www.rbc.ru/
rbcfreenews/5846a3689a7947446ca6289e ``Court rejects complaint in Boris 
Nemstov murder case on the refusal to question Viktor Zolotov.'' 
Kommersant.  May 30, 2016 (in Russian) https://www.kommersant.ru/doc/
3000683
---------------------------------------------------------------------------
    Under the statutes of the OSCE--and contrary to repeated claims by 
Kremlin officials--human rights abuses in member states cannot be 
dismissed as an ``internal affair'' and are ``matters of direct and 
legitimate concern to all participating States.'' \6\ It is important 
that our OSCE partners speak openly and honestly about what is 
happening in Russia. It is also important--since human rights are a 
matter of international concern--that there be international 
accountability for those who violate them. The U.S. does have a 
mechanism for such accountability in the Magnitsky Act that provides 
for targeted sanctions on human rights abusers. This law should 
continue to be implemented to its full extent.
---------------------------------------------------------------------------
    \6\ CSCE/OSCE Moscow Document http://www.osce.org/odihr/elections/
14310?download=true
---------------------------------------------------------------------------
    The main responsibility for ensuring the respect for human rights, 
the rule of law. and democratic principles in Russia lies, of course, 
with Russian citizens. And I would respectfully disagree with the 
subtitle of this hearing that there is ``no end in sight'' to the 
abuses. Increasingly, the young generation in Russia--the very 
generation that grew up under Vladimir Putin--is demanding respect and 
accountability from those in power. Last month, protests against 
government corruption swept across Russia, with tens of thousands of 
people--mostly young peole--taking to the streets despite arrests and 
intimidation. \7\ This movement will continue. And these growing 
demands for accountability are the best guarantee that Russia will one 
day become a country where citizens can exercise the rights and 
freedoms to which they are entitled.
---------------------------------------------------------------------------
    \7\  ``A map of the protests.'' Meduza. March 27, 2017 (in Russian) 
https://meduza.io/feature/2017/03/27/skolko-lyudey-vyshli-na-ulitsy-26-
marta-i-skolko-zaderzhali-karta-protesta
---------------------------------------------------------------------------

              Prepared Statement of Dr. Daniel Calingaert

Introduction

    Thank you Chairman Wicker, Co-Chairman Smith, and Members of the 
Commission. It is an honor to testify before you today. I ask that my 
full written statement be submitted for the record.
    Repression in Russia echoes strongly across Eurasia and beyond. 
President Vladimir Putin was the primary author of the modern 
authoritarian's playbook, which has guided strategies of political 
control since the early 2000s. His methods for suppressing civil 
society and political opposition have inspired other dictators, and his 
media manipulation has impacted most of Eurasia directly and extended 
to Europe and the United States. The spread of Russia's repressive 
practices is amplified by the global assault on democratic values, 
which Putin has spearheaded.
    Democracy has continued to deteriorate in Eurasia. Among the 12 
former Soviet states (excluding the Baltic states), nine suffered 
declines in the past year, according to the most recent edition of 
Freedom House's annual report Nations in Transit. And Eurasia already 
is the second most repressive region in the world, only slightly better 
than the Middle East and North Africa. 1A\1\
---------------------------------------------------------------------------
    \1\ Freedom in the World 2017: https://freedomhouse.org/report/
freedom-world/freedom-world-2017
---------------------------------------------------------------------------
    U.S. leadership is critical to counteract the spread of Russia's 
repressive practices and media manipulation and thereby defend American 
values and interests.

Modern authoritarian playbook

    Modern authoritarians like Putin create a facade of pluralism that 
masks state control over political outcomes, as detailed in a 
forthcoming Freedom House report. \2\ Independent news outlets survive 
with small audiences while pro-government outlets dominate the media, 
particularly television, where most people get their news. Non-
governmental organizations (NGOs) that mimic the government line or 
carry out innocuous work like public health can operate freely, while 
groups focused on political reform or human rights are highly 
restricted. Opposition parties compete in regular elections but are cut 
down to size if they start to gain substantial public support.
---------------------------------------------------------------------------
    \2\  Arch Puddington, Breaking Down Democracy: The Goals, 
Strategies, and Methods of Modern Authoritarians, Freedom House, 
forthcoming.
---------------------------------------------------------------------------
    When election day comes, modern authoritarians rarely face a 
significant challenge. By then, they have dominated the political 
narrative through their control of the media, muzzled their critics, 
and blocked the political opposition from organizing on a large scale. 
They also provide or deny access to state resources, including allow 
oligarchs to accumulate vast wealth unencumbered, to ensure loyalty to 
the regime.
    Putin pioneered the modern authoritarian playbook in the early 
2000s and refined it over the course of his rule. Other dictators have 
replicated it. They have followed Russia's example and adopted specific 
methods of repression introduced by Putin.

Suppression of civil society

    A key component of this playbook is suppression of civil society, 
because civil society mobilizes citizens to check the abuses of power 
committed by authoritarian elites and to press for democratic reform. 
As authoritarian rulers seek to stack the deck for their reelection 
long before election day, to the point where elections are no longer 
competitive, civil society offers the greatest opportunities to change 
a country's direction, as occurred with the Euro-Maidan movement in 
Ukraine and, in 2011, the Arab uprisings.
    Russia set the example of constraining space for civil society with 
government criticism of foreign funding for local civil society groups 
and the introduction of a restrictive NGO law in 2006. Neighboring 
countries followed this example, and governments from Ethiopia to 
Venezuela later pursued a similar assault on civil society. \3\ In 
2012, Russia passed a foreign agents law that required NGOs to register 
as ``foreign agents'' if they receive foreign funding to conduct 
``political activity.'' This label harks back to the Soviet term used 
to describe foreign spies and serves to stigmatize pro-democracy NGOs. 
Similar legislation was enacted in Kazakhstan, debated but ultimately 
rejected in Kyrgyzstan, and drafted in Hungary.
---------------------------------------------------------------------------
    \3\  Thomas Carothers and Saskia Brechenmacher, Closing Space: 
Democracy and Human Rights Support under Fire, Carnegie Endowment, 
2014: http://carnegieendowment.org/files/closing_space.pdf
---------------------------------------------------------------------------
    A foreign agents law can debilitate political reform and human 
rights groups. In Russia, 158 groups were designated as ``foreign 
agents'' and 30 have shut down, according to Human Rights Watch. \4\ 
Even when not enacted, the debate about foreign agents feeds a 
pernicious narrative aimed at vilifying civil society. This narrative 
portrays civil society groups as venal paid agents of foreign forces 
that seek to impose alien agendas and dilute national sovereignty. 
Authoritarian rulers like Putin use this narrative to distract 
attention from the real issue--from their efforts to deny citizens 
fundamental freedoms. The portrayal of civic activists as unpatriotic 
is particularly pernicious, as these activists in fact show true 
patriotism in devoting their time and often running serious risks to 
expose corruption, observe elections, and give citizens a greater voice 
in how they are governed.
---------------------------------------------------------------------------
    \4\  https://www.hrw.org/russia-government-against-rights-groups-
battle-chronicle
---------------------------------------------------------------------------
    The false narrative of civil society serving foreign interests was 
reinforced by Russia's introduction in 2013 of the anti-LGBT 
``propaganda'' law, which penalizes ``propaganda'' of homosexuality. 
Putin made an issue of so-called LGBT propaganda to depict human rights 
defenders as purveyors of decadent Western influence intent on imposing 
their alien values on traditional Russian society. The anti-LGBT law 
advances this false narrative, undermines respect for human rights, and 
causes serious harm to Russians. It led to a surge in hate crimes. From 
2012 to 2015, annual murders of LGBT persons in Russia rose from 14 to 
27. \5\
---------------------------------------------------------------------------
    \5\  Alexander Kondakov, Prestuplenia na pochve nenavisti protiv 
LGBT [Hate Crimes against LGBT Persons], Centre for Independent Social 
Research, St. Petersburg, Russia, 2017.
---------------------------------------------------------------------------
    The introduction of repressive legislation like the foreign agents 
law and anti-LGBT law serves to mobilize the justice system in 
constraining rather than defending the rights of citizens and to give a 
patina of legitimacy to the government's effort to crush dissent.

Media manipulation

    While Russia's repressive practices have echoed beyond its borders, 
its media manipulation affects other countries directly.
    Media manipulation is a sophisticated new form of influence that 
combines facts, exaggerations, distortions, and outright fabrications 
to shape public opinions. The influence often relies on high-quality 
productions and entertaining content, for instance by RT (formerly 
Russia Today), or on social media to amplify rumors or blatant 
falsehoods to a significant audience. The reach of these rumors and 
falsehoods in social media at times prompts coverage in mainstream 
media, as happened with rumors about presidential candidate Emmanuel 
Macron in France. \6\
---------------------------------------------------------------------------
    \6\  https://www.nytimes.com/2017/04/17/world/europe/french-
election-russia.html?_r=0
---------------------------------------------------------------------------
    Russia manipulates the media space to advance narratives that run 
counter to verifiable facts but serve its interests. These narratives 
compete with credible news coverage for attention in Eurasia and 
Europe. They challenge the very notion of objective truth and thereby 
aim to breed cynicism and weaken trust in democratic institutions.
    Russian television has extensive reach in neighboring countries. It 
monopolizes coverage of international news in Kyrgyzstan and 
Kazakhstan, dominates the media space in Belarus, and is viewed by most 
ethnic Russians in the Baltic states. \7\ Russian media has influenced 
public perceptions in Eurasia. According to a Gallup poll, residents in 
most of the 12 countries of Eurasia find the Russian media's coverage 
of the situation in Ukraine and Crimea more reliable than Western media 
coverage. \8\
---------------------------------------------------------------------------
    \7\  David Satter, The Last Gasp of Empire: Russia's Attempts to 
Control the Media in the Former Soviet Republics, National Endowment 
for Democracy, January 2014: http://www.cima.ned.org/wpcontent/uploads/
2015/02/CIMA-Russia%20report--David%20Satter.pdf
    \8\  http://www.gallup.com/opinion/gallup/189164/russian-western-
media-battle-influence.aspx
---------------------------------------------------------------------------
    Because Russian TV reaches large audiences in neighboring 
countries, it can instigate discussions and drive public discourse, as 
it did on foreign funding for NGOs in Kyrgyzstan. And even where its 
reach is limited, Russian media can spark public discussions, as it did 
in Germany with a false report about a 13-year-old Russian-German girl 
raped by migrants.
    During the U.S. election last year, scores of websites routinely 
peddled Russian propaganda, and coordinated efforts on social media 
amplified false or misleading stories, for instance about Hillary 
Clinton's health and about electoral irregularities. Some of these 
stories originated from Russian state-funded broadcasters RT or 
Sputnik. \9\
---------------------------------------------------------------------------
    \9\  https://www.washingtonpost.com/business/economy/russian-
propaganda-effort-helped-spread-fakenews-during-election-experts-say/
2016/11/24/793903b6-8a40-4ca9-b712-
716af66098fe_story.html?tid=ss_mail&utm_term=.9aefc7291d7b
---------------------------------------------------------------------------

International norms

    At the same time as Russia presents a model for political control 
by authoritarian rulers, it seeks to undercut the ability of 
international organizations, including the Organization for Security 
and Cooperation in Europe (OSCE), to protect human rights and 
democratic standards. For example, Russia blocked the reappointment of 
the OSCE High Commissioner for National Minorities, because it objected 
to her statement in 2014 that she found no evidence of rights 
violations against ethnic Russians in Crimea, and has impeded the 
selection of a new OSCE Representative on Freedom of the Media. Russia 
seeks to avert scrutiny of its human rights record and that of like-
minded governments and to reinforce the narrative that Russia's 
purported defense of ``traditional values'' should take precedence over 
international norms. The Russian government's emphasis on ``traditional 
values'' in fact is a cynical ploy to avoid accountability for its 
human rights violations.
    Russia's challenge to international human rights norms is a key 
part of its broader effort to revise the European order, which the 
United States was instrumental in creating and which has provided the 
foundation for peace on the continent for over 70 years. This order is 
based to a large extent on the Helsinki Final Act of 1975, particularly 
the grand bargain whereby the United States and Western Europe accepted 
existing borders and the Soviet Union and its communist allies 
recognized the human dimension as integral to security. This bargain 
has broken down. Russia respects neither human rights nor existing 
borders, as evident in its intervention in Ukraine and annexation of 
Crimea.

U.S. interests

    U.S. support for democracy and human rights is integral to the 
European order that provides peace and security. Unless the United 
States actively defends this order, Russia will continue to erode it, 
and Europe will grow less stable. Expansion of Russian influence in 
Europe is likely to reduce support for the trans-Atlantic alliance and 
weaken resistance to Russia's encroachments on the territorial 
integrity of its neighbors.
    The spread of democracy serves U.S. economic interests as well. 
Democratic countries usually are more reliable partners, more 
economically successful, and more open to foreign trade and investment. 
Corruption and weak rule of law put U.S. businesses at a distinct 
disadvantage in relation to local competitors with political 
connections, and restrictions on media and civil society, such as 
internet restrictions, limit the access of American companies to 
overseas markets. For example, LinkedIn was blocked in Russia after a 
court ruled that the company had failed to comply with a law requiring 
internet companies to store data on Russia citizens within the 
country's borders. This law gives Russian intelligence services easy 
access to personal data.
    When the United States defends human rights, it is not imposing its 
values on other countries. Instead, it is holding other governments to 
account for failing to live up to their own laws and international 
commitments to respect the rights of their citizens, including their 
commitments under the OSCE.

Recommendations

    To counteract the spread of Russia's repressive practices and media 
manipulation, the U.S. government should do the following:

    <bullet>  Staunchly defend the human rights norms established by 
the OSCE and other international conventions. The United States should 
respond firmly and vocally to every serious violation of OSCE 
commitments by Russia or other member governments.
    <bullet>  Lead democratic countries in publicly criticizing and 
diplomatically pushing back on initiatives to replicate Russia's 
repressive practices in other countries, such as the Hungarian 
government's foreign agents bill.
    <bullet>  Fully enforce both the Sergei Magnitsky Rule of Law 
Accountability Act and the Global Magnitsky Human Rights Accountability 
Act, which provide for U.S. visa bans and asset freezes on foreign 
officials responsible for gross human rights abuses. These targeted 
sanctions introduce some measure of accountability for such officials 
and serve to deter future violations of human rights. Congress should 
press the President to add more senior Russian officials to the Russia 
sanctions list and to impose sanctions on officials of other 
governments under the Global Magnitsky Act.
    <bullet>  Maintain robust funding for U.S. foreign broadcasting, 
including Radio Free Europe/Radio Liberty and Voice of America, even in 
the current context of likely cuts in federal spending. These 
broadcasting services counteract Russian propaganda by providing 
balanced, fact-based news in local languages.
    <bullet>  Support independent Russian-language media based outside 
of Russia so that they can sustain their news coverage and expand their 
audiences. The forms of this support-training, technical assistance 
with business operations, material support, etc.-should be determined 
mainly by these media outlets and reinforce their independence and 
credibility.
    <bullet>  Continue to provide assistance for human rights and civil 
society in Russia and Eurasia, including support for pro-democracy 
civic initiatives and emergency assistance to human rights defenders. 
The U.S. government should ensure discretion and sensitivity in 
providing funds for these purposes.

    A firm U.S. response to the spread of Russia's repressive practices 
and media manipulation is critical to defend American values, protect 
the European order that has safeguarded peace on the continent, and 
advance U.S. security and economic interests in Europe and beyond.









                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

 List of Individuals Recognized as Political Prisoners by the Memorial 
                          Human Rights Center
                          
                          
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                        

                                 [all]



  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

    *     *     *      *     *

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).


    *     *     *      *     *

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

    *     *     *      *     *



http://www.csce.gov           @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
